<html>
<title> - BAKKEN PETROLEUM: THE SUBSTANCE OF ENERGY INDEPENDENCE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                   BAKKEN PETROLEUM: THE SUBSTANCE OF
                          ENERGY INDEPENDENCE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON ENERGY &
                       SUBCOMMITTEE ON OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2014

                               __________

                           Serial No. 113-92

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov
       
       
                               _____________
                               
                               
                               
                             U.S. GOVERNMENT PUBLISHING OFFICE
92-325                           WASHNGTON : 2015                             
       
_______________________________________________________________________________________      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88eff8e7c8ebfdfbfce0ede4f8a6ebe7e5a6">[email&#160;protected]</a>  
    
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                         Subcommittee on Energy

                  HON. CYNTHIA LUMMIS, Wyoming, Chair
RALPH M. HALL, Texas
FRANK D. LUCAS, Oklahoma             ERIC SWALWELL, California
RANDY NEUGEBAUER, Texas              ALAN GRAYSON, Florida
MICHAEL T. McCAUL, Texas             JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             MARC VEASEY, Texas
THOMAS MASSIE, Kentucky              ZOE LOFGREN, California
KEVIN CRAMER, North Dakota           DANIEL LIPINSKI, Illinois
RANDY WEBER, Texas                   KATHERINE CLARK, Massachusetts
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas
                                 ------                                

                       Subcommittee on Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DAN MAFFEI, New York
    Wisconsin                        ERIC SWALWELL, California
BILL POSEY, Florida                  SCOTT PETERS, California
KEVIN CRAMER, North Dakota           EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
LAMAR S. SMITH, Texas
                            C O N T E N T S

                           September 9, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Cynthia Lummis, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     8

Statement by Representative Eric Swalwell, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................     9

Statement by Representative Paul C. Broun, Chairman, Subcommittee 
  on Oversight, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    10
    Written Statement............................................    11

Statement by Representative Kevin Cramer, Subcommittee on Energy, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11

Statement by Representative Dan Maffei, Ranking Minority Member, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

                               Witnesses

                                Panel I

Mr. Chris Smith, Principal Deputy Assistant Secretary, Office of 
  Fossil Energy, U.S. Department of Energy
    Oral Statement...............................................    15
    Written Statement............................................    17
    Submitted Biography..........................................    25

Mr. Timothy Butters, Deputy Administrator, Pipeline and Hazardous 
  Materials Safety Administration, U.S. Department of 
  Transportation
    Oral Statement...............................................    26
    Written Statement............................................    28
    Submitted Biography..........................................    42

Discussion.......................................................    43

                                Panel II

Ms. Kari Cutting, Vice President, North Dakota Petroleum Council
    Oral Statement...............................................    63
    Written Statement............................................    66
    Submitted Biography..........................................    72

Mr. John Auers, Executive Vice President, Turner, Mason, & 
  Company
    Oral Statement...............................................    73
    Written Statement............................................    76
    Submitted Biography..........................................    86

Mr. Mark Zoanetti, Deputy Chief of Special Operations, Syracuse 
  Fire Department
    Oral Statement...............................................    87
    Written Statement............................................    90
    Submitted Biography..........................................    93

Discussion.......................................................    94

             Appendix I: Answers to Post-Hearing Questions

Mr. Chris Smith, Principal Deputy Assistant Secretary, Office of 
  Fossil Energy, U.S. Department of Energy.......................   106

Mr. Timothy Butters, Deputy Administrator, Pipeline and Hazardous 
  Materials Safety Administration, U.S. Department of 
  Transportation.................................................   109

Ms. Kari Cutting, Vice President, North Dakota Petroleum Council.   113

            Appendix II: Additional Material for the Record

Prepared statement by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   118


                   BAKKEN PETROLEUM: THE SUBSTANCE OF


                          ENERGY INDEPENDENCE

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2014

                  House of Representatives,
        Subcommittee on Energy and Subcommittee on 
                                         Oversight,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 2:05 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Cynthia 
Lummis [Chairwoman of the Subcommittee on Energy] presiding.
[GRAPHICS NOT AVAILABLE TIFF FORMAT] 

    Chairwoman Lummis. The joint hearing of the Subcommittee on 
Energy and the Subcommittee on Oversight will come to order.
    Good afternoon. Welcome to today's joint hearing. It is 
titled ``Bakken Petroleum: The Substance of Energy 
Independence.'' Now, in front of each Member are packets 
containing the written testimony, biographies, and truth-in-
testimony disclosures for today's witnesses.
    Before we get started, since this is a joint hearing 
involving two subcommittees, I want to explain how we will 
operate procedurally so all Members understand how the 
question-and-answer period will be handled. After first 
recognizing the Chair and Ranking Members of the Energy and the 
Oversight Committees, we will recognize those members of the 
subcommittee present at the gavel in order of seniority on the 
full committee, and those coming in after the gavel will be 
recognized in order of arrival.
    I now recognize myself for five minutes for an opening 
statement.
    I want to welcome our witnesses to today's hearing. Today, 
the Energy and Oversight Subcommittees will inquire about the 
characteristics and behavior of petroleum produced from the 
Bakken region.
    Petroleum from the Bakken region recently passed a million 
barrels per day, which accounts for approximately 12 percent of 
total domestic production. This is an important resource for 
the United States and it deserves due attention.
    That said, we are not here today to debate the merits of 
rail or pipeline transportation, or their current and proposed 
regulation. Those are important issues, but today we have a 
scientific focus: the characteristics and behavior of Bakken 
petroleum.
    As we will hear today, the DOT's Pipeline and Hazardous 
Materials Safety Administration has undertaken a broad sampling 
and testing program to better understand if or to what extent 
Bakken petroleum may be unique from other petroleum types.
    In July 2014, PHMSAis that what--is that right? PHMSA, you 
call it PHMSA? Okay--released a report, titled ``Operation Safe 
Delivery Update,'' which concluded that Bakken petroleum ``is 
more volatile than most other types of crude, which correlates 
to increased ignitability and flammability.'' These conclusions 
regarding volatility without context and the assertion that 
volatility necessarily correlates to increased ignitability and 
flammability have generated significant controversy, which I am 
hopeful we can resolve at today's hearing.
    The written testimony of our PHMSA and DOE witnesses 
clarifies the context of volatility: that petroleum from the 
Bakken region is properly classified as a light sweet crude oil 
and not outside the norms for light crude oils. And today's DOE 
written testimony states that ``more scientific analysis is 
needed to better define the relationship between volatility and 
ignitability/flammability.''
    The Science Committee will be interested to hear about the 
results of DOE's research as it progresses. I look forward to 
further discussion and again thank today's witnesses for 
participating in today's hearing.
    [The prepared statement of Mrs. Lummis follows:]

              Prepared Statement of Subcommittee on Energy
                       Chairwoman Cynthia Lummis

    Good afternoon. I would like to welcome our witnesses to today's 
hearing titled Bakken Petroleum: The Substance of Energy Independence. 
Today, the Energy and Oversight Subcommittees will inquire about the 
characteristics and behavior of petroleum produced from the Bakken 
region.
    Petroleum from the Bakken region recently passed 1 million barrels 
per day, which accounts for approximately 12% of total domestic 
production. This is an important resource for the United States and it 
deserves due attention.
    That said, we are not here today to debate the merits of rail or 
pipeline transportation, or their current and proposed regulations. 
Those are important issues, but today we have a scientific focus: the 
characteristics and behavior of Bakken petroleum.
    As we will hear today, the DOT's Pipeline and Hazardous Materials 
Safety Administration, also known as ``PHMSA,'' has undertaken a broad 
sampling and testing program to better understand if or to what extent 
Bakken petroleum may be unique from other petroleum types.
    In July 2014, PHMSA released a report, titled ``Operation Safe 
Delivery Update,'' which concluded that Bakken petroleum ``is more 
volatile than most other types of crude--which correlates to increased 
ignitability and flammability.'' These conclusions regarding: (1) 
volatility without context and (2) the assertion that volatility 
necessarily correlates to increased ignitability and flammability have 
generated significant controversy, which I am hopeful we can resolve in 
today's hearing.
    The written testimony of our PHMSA and DOE witnesses clarifies the 
context of volatility: that petroleum from the Bakken region is 
properly classified as a ``light, sweet crude oil'' and not outside the 
norms for light crude oils. And today's DOE written testimony states 
that ``more scientific analysis is needed to better define the 
relationship between volatility and ignitability/flammability.''
    The Science Committee will be interested to hear about the results 
of DOE's research as it progresses. I look forward to further 
discussion and again, I thank today's witnesses for participating in 
today's hearing.

    Chairwoman Lummis. The Chair now recognizes Mr. Swalwell 
for his opening statement.
    Mr. Swalwell. Thank you, Chairwoman Lummis and Chairman 
Broun, for holding this hearing and I want to thank our 
witnesses for appearing today and for their forthcoming 
testimony.
    We are clearly in the midst of a substantial boom in oil 
and gas production, and it is worth reminding my colleagues 
here today that this is a great example, whether you agree that 
this is a long-term solution for our country or not, that much 
of the advances that have allowed this boom have come from 
investments that have been made from and by the Department of 
Energy. And they have directly allowed advancements in 
directional drilling technologies and hydraulic fracturing 
practices that have made this boom possible.
    But also it should come as no surprise that the rapid, 
massive growth and demand to transport these fuels has raised 
new issues. What kind of growth am I talking about? Well, 
according to the Association of American Railroads, there were 
10,800 car loads of crude oil transported by rail in 2009. Now 
that may sound like a lot, but in 2013 there were over 400,000 
carloads of crude oil or about 37 times as much. And it is 
unfortunately becoming increasingly clear that our current 
railway safety standards were not designed to handle anywhere 
near these levels and types of crude oil transport that we are 
seeing today. It is incumbent upon Congress, I believe, to make 
sure that the policies and regulations stay up with the 
advancements in technology.
    There have been several significant accidents in recent 
years, one of which led to the tragic death of 47 people in a 
small town in Queebec last year. And we are frankly lucky that 
the location of some of these other accidents were remote 
enough to avoid similar or even worse outcomes.
    My home State of California is projected to receive up to 
150 million barrels of oil by rail by 2016 compared with just 
two million barrels in 2011, and much of that oil will be 
volatile crude from the Bakken region of North Dakota and 
Canada. And people in my district and at home in the East Bay 
are rightfully concerned about what this will mean for their 
safety and that is why I am glad that the Department of 
Transportation is finally addressing this issue head-on. So we 
must do all that we can to protect any persons who are in the 
path of this crude oil as it is being transported.
    And I would also just like to address the title of the 
hearing, ``Bakken Petroleum: The Substance of Energy 
Independence.'' I disagree that Bakken petroleum is true energy 
independence. I believe this provides at best an energy 
lifeline, but I think true energy independence in our country 
will be when we are able to fully harness and capture the 
renewables. And so I doubt that when we reach that point, and I 
hope it is soon, we will ever have to hold a hearing on the 
volatility of wind, solar, or fuel cells, and we should be 
reminded about the difference between the two.
    Thank you again to all of our witnesses for being here 
today and providing us with an opportunity to hear from a wide 
range of stakeholders, and I yield back.
    [The prepared statement of Mr. Swalwell follows:]

              Prepared Statement of Subcommittee on Energy
                 Ranking Minority Member Eric Swalwell

    Thank you Chairwoman Lummis and Chairman Broun for holding this 
hearing, and I also want to thank our witnesses for their testimony and 
for being here today.
    We are obviously in the middle of a substantial boom in oil and gas 
production, and it is worth reminding my colleagues here today that 
this is a great example of how government research can pay off when it 
comes to energy development. It is widely recognized that DOE-supported 
research was key to advancing the directional drilling technologies and 
hydraulic fracturing practices that have made this boom even possible.
    But it should also come as no surprise that the rapid, massive 
growth in demand to transport these fuels has raised new issues. What 
kind of growth am I talking about? Well, according to the Association 
of American Railroads, there were 10,800 carloads of crude oil 
transported by rail in 2009. Now that may sound like a lot, but in 
2013, there were over 400,000 carloads of crude oil, or about 37 times 
as many. And it's unfortunately becoming increasingly clear that our 
current railway safety standards were not designed to handle anywhere 
near these levels and types of crude oil transport we're seeing today.
    There have been several significant accidents in recent years, one 
of which led to the tragic death of 47 people in a small town in 
Queebec last year. And we may frankly be lucky that the locations of 
some of the other accidents were remote enough to avoid similar--or 
even worse--outcomes.
    My home state of California is projected to receive up to 150 
million barrels of oil by rail by 2016, compared with just 2 million 
barrels in 2011, and much of that oil will be volatile crude from the 
Bakken region of North Dakota and Canada.
    This is why I am glad that the Department of Transportation is 
finally addressing this issue head on. It appears to me that with this 
proposed rule we are ensuring that the United States not only continues 
to be a leader in the production and transportation of these fuels, but 
that we really do this in a safe and responsible manner.
    Thank you again to all of our witnesses for being here today and 
providing us with an opportunity to hear from a wide range of 
stakeholders, and with that I yield back.

    Chairwoman Lummis. Thank you, Mr. Swalwell.
    The Chair now recognizes the Chairman of the Subcommittee 
on Oversight, Mr. Broun, for his opening statement.
    Mr. Broun. Thank you, Chairwoman Lummis, and I welcome all 
of our witnesses today.
    While I look forward to hearing from both panels today, I 
must say I am very disappointed, though not surprised, that 
this Administration is continuing to have an unwillingness to 
work with the Congress. Chairwoman Lummis and I invited 
representatives from the agencies who are experts in the 
subject matter because we are interested in the science behind 
Bakken crude. Instead, both agencies appearing before the 
Committee today declined to provide the witnesses that we 
requested, sending us in their place, witnesses more 
knowledgeable on the politics behind Bakken crude. As I said, I 
am not surprised, I am just very disappointed.
    Over the past few years, the United States has made 
significant technological advances in the production of energy, 
leading to an increased supply of our country's vast God-given 
resources to fulfill the energy needs of Americans. Much of 
this is due to the influx of crude oil output from the Bakken 
Shale region, which topped one million barrels per day earlier 
this year, and is expected to climb to 1.5 million barrels a 
day over the next three years.
    Given the large volume of crude being transported across 
the country, the Department of Transportation began testing its 
characteristics to determine its flammability and volatility. 
Preliminary results of the review were published in July, which 
concluded that crude oil from the Bakken formation ``is more 
volatile than most other types of crude, which correlates to 
increased ignitability and flammability.''
    The DOT report's comparison of the Bakken crude, which is 
classified as a light sweet crude, to crude oil in general, 
including heavier crudes, is a bit like comparing apples to 
oranges because light sweet crude as a class is generally 
considered to be more volatile than the heavier crudes. 
Separately, the North Dakota Petroleum Council commissioned a 
similar kind of study to the DOT study. While both the 
government and industry studies led to similar scientific 
results, the NDPC study concluded that Bakken crude is no more 
volatile, again, no more volatile than other types of light 
sweet crudes.
    Energy independence creates a healthy economy, jobs at 
home, and directly correlates to our national security by 
limiting how much we rely on foreign energy imports to survive 
and prosper. America is on the road towards energy 
independence, with domestic crude contributing extensively, and 
it would be disastrous to impede on this extraordinary 
possibility.
    While I have heard the Administration claim over the years 
that it supports an ``all-of-the-above'' energy plan, I hope 
that when all is said and done, Bakken crude does not become an 
example of a ``none-of-the-below'' practice that seems to be 
prevalent in this Administration.
    Thank you again, Chairwoman Lummis, and I would like to 
yield the balance of my time to my good friend, Mr. Cramer, the 
Vice Chairman of the Oversight Subcommittee. Mr. Cramer.
    [The prepared statement of Mr. Broun follows:]

              Prepared Statement of Oversight Subcommittee
                          Chairman Paul Broun

    Thank you, Chairwoman Lummis, and welcome to all of our witnesses. 
While I look forward to hearing from both panels today, I must say I am 
disappointed--though not surprised--at this Administration's continued 
unwillingness to work with the Congress. Chairwoman Lummis and I 
invited representatives from the agencies who are experts in the 
subject matter because we are interested in the science behind Bakken 
crude. Instead, both agencies appearing before the Committee today 
declined to provide the witnesses we requested, sending us in their 
place witnesses more knowledgeable on the politics behind Bakken crude. 
As I said, I am not surprised, just disappointed.
    Over the past few years, the United States has made significant 
technological advances in the production of energy, leading to an 
increased supply of our country's vast resources to fulfill the energy 
needs of Americans. Much of this is due to the influx of crude oil 
output from the Bakken Shale region, which topped one million barrels 
per day earlier this year, and is expected to climb to 1.5 million 
barrels a day over the next three years.
    Given the large volume of crude being transported across the 
country, the Department of Transportation began testing its 
characteristics to determine its flammability and volatility. 
Preliminary results of the review were published in July, which 
concluded that crude oil from the Bakken formation ``is more volatile 
than most other types of crude--which correlates to increased 
ignitability and flammability.''
    The DOT report's comparison of the Bakken crude, which is 
classified as a light, sweet crude, to crude oil in general, including 
heavier crudes, is a bit like comparing apples to oranges because light 
sweet crudes as a class are generally considered to be more volatile 
than heavier crudes. Separately, the North Dakota Petroleum Council 
commissioned a study similar to the DOT study. While both the 
government and industry study led to similar scientific results, the 
NDPC study concluded that Bakken crude is no more volatile than other 
types of light, sweet crudes.
    Energy independence creates a healthy economy, jobs at home, and 
directly correlates to our national security by limiting how much we 
rely on foreign energy imports to survive and prosper. America is on 
the road toward energy independence, with domestic crude contributing 
extensively, and it would be disastrous to impede on this extraordinary 
possibility.
    While I have heard the Administration claim over the years that it 
supports an ``all-of-the-above'' energy plan, I hope that when all is 
said and done, Bakken crude does not become an example of a ``none of 
the below'' practice.
    Thank you again, Chairwoman Lummis, and I would like to yield the 
balance of my time to my good friend, Mr. Cramer, the Vice Chairman of 
the Oversight Subcommittee.

    Mr. Cramer. I thank the Chairman, I thank Chairwoman Lummis 
and the Ranking Members, and certainly thank Chairman Smith of 
the overall committee for agreeing to call this hearing.
    Being the sole Representative from the State known as 
Bakken, North Dakota, and being that North Dakota is the place 
where one of the rail accidents occurred, I am familiar with 
both sides of this issue and prefer that there not be sides but 
rather that we all pull in the same direction.
    And I have to say that while I share Chairman Broun's 
perhaps disappointment that we didn't get the witnesses that 
perhaps we asked for, I am very pleased with the pre-filed 
testimony. I guess that is the right tone and look forward to 
the opportunity for Q&A in a reasoned and scientific manner 
that is true to the spirit of this committee and to the 
commission of this committee.
    I think it is hard to move forward with a lot of rules 
until we know for sure what we are dealing with on the one 
hand. On the other hand, there is a sense of urgency about the 
safety of moving this product and we want to be able to have a 
rule that not just meets the urgency of the moment but also is 
a good rule and a correct rule. That said, I too, and have from 
the very beginning, want this hearing to focus specifically on 
the characteristics of Bakken crude, perhaps talk about the 
differences and similarities in the various studies that have 
been done between industry and the government and make sure 
that we are all working together on the same team, pulling the 
same direction, and for the good of all of our constituents.
    So with that, I appreciate the time that you yielded.
    Chairwoman Lummis. Thank you, Mr. Broun, and thank you, Mr. 
Cramer.
    The Chair now recognizes Mr. Maffei for his opening 
statement.
    Mr. Maffei. Thank you very much, Madam Chair, and thank you 
for holding this hearing today.
    Like Mr. Swalwell, I too found the title of this hearing 
rather curious. The title suggests that Bakken crude oil is 
part of America's path to energy independence and I certainly 
do want to talk about the various issues related to it. It is 
certainly one of those sources that has been increasing in 
recent years. But if we do truly want to explore ``energy 
independence'' in the United States, as the title of this 
hearing does suggest, and given the fact that we are the 
Science and Technology Committee, we should be exploring the 
use and development of domestic renewable sources of energy 
such as wind, solar power, biofuels, geothermal, even nuclear, 
those that do not add to the threats posed by global climate 
change, which we have already started to see.
    That said, once one gets past the politically loaded title, 
I am truly grateful to both the Chairwoman of the Energy 
Subcommittee and the Chairman of the Subcommittee on Oversight 
for calling this hearing today. The issue of Bakken crude oil 
and railcar safety combined is particularly important to my 
constituency, my constituents, and my district in upstate New 
York since we have two train cars a day that carry Bakken crude 
oil that pass through the Syracuse, New York, area in my home 
district.
    And while the production of crude oil from the Bakken 
region in North Dakota, Montana, and Canada has increased 
markedly in the past several years, jumping a bit more from--
more than 100,000 barrels per day in 2007 to more than one 
million per day today, so have the fears about potentially 
catastrophic accidents as mile-long train cars transporting 
Bakken crude traverse the country.
    Now, Bakken crude oil is more volatile, and what I mean by 
volatile is a lower flashpoint that could lead to an explosion. 
It is more than other heavy crude oils. But I agree with the 
Chairs that this volatility is consistent with other light 
sweet crude oils. We have no reason to think it is any worse or 
better than other light sweet crudes.
    So to help address some of the known safety issues in 
transporting light crude oils, generally in working with the 
industry, the Pipeline and Hazardous Materials Safety 
Administration came out with a proposed regulation two months 
ago regarding crude-by-rail safety issues, including methods to 
help reduce the risk of accidents and areas for improved safety 
and response to these potential hazards, and I am very happy to 
have PHMSA witnesses today to discuss their efforts regarding 
improved safety on our rail.
    I am also particularly pleased that we have a witness from 
my home district in Syracuse, New York, Mark Zoanetti, the 
Deputy Chief of Special Operations for the Syracuse Fire 
Department, which I will say is one of the best mid-level city 
fire departments in the United States, and he will help us 
discuss the real-world consequences of these hazards and how 
first responders can train to address the threats and potential 
improvement that would help all of us--help all those 
departments respond to these and other hazards involving 
railcar safety.
    Again, trains carrying Bakken crude oil traverse the length 
of my upstate New York district on their way to Albany, New 
York, and many East Coast refineries, as they do cross much of 
the United States. Using the rail lines, these trains can be up 
to a mile long and they can carry roughly 120 tank cars with 
85,000 barrels of oil. So any substance with any volatility at 
all would obviously be a concern to me. I am not necessarily 
judging Bakken crude as any different or any more of a concern, 
but safety clearly is a concern and one we have to deal with.
    And so, therefore, I do look very much forward to hearing 
all the witnesses on both panels today, and again, I want to 
thank both the Chairman and the Chairwoman for holding this 
hearing and also thank my fellow Ranking Member, Mr. Swalwell.
    I yield back.
    [The prepared statement of Mr. Maffei follows:]

              Prepared Statement of Oversight Subcommittee
                   Ranking Minority Member Dan Maffei

    Thank you Mr. Chairman for calling this hearing today. The issue of 
Bakken crude oil and railcar safety is particularly important to me and 
my constituents since two trains a day carrying Bakken crude oil pass 
through Syracuse, New York, my home district. While the production of 
crude oil from the Bakken region in North Dakota, Montana and Canada 
has exploded in the past several years jumping from a bit more than 
100,000 barrels per day in 2007 to more than one million barrels per 
day today, so have the fears about potentially catastrophic accidents 
as milelong train cars transporting Bakken crude oil traverse the 
country.
    Bakken crude oil is more volatile than other heavier crude oils, 
although its volatility is consistent with other light sweet crude 
oils. However, since production of Bakken crude has surged in recent 
years and more than 70-percent of this crude oil is now shipped by rail 
there is legitimate concern about the volume of this oil being shipped 
by rail given its known potential volatility and an increasing number 
of train derailments and accidents involving Bakken crude over this 
same time period. These are legitimate concerns. While the focus of 
today's hearing seems to have shifted from originally examining safety 
issues associated with the transport of Bakken crude and other light 
crude oils to discussing how Bakken crude oil is part of America's path 
to energy independence, we must consider the safety issues associated 
with it. If we truly want to explore ``energy independence,'' as the 
title of this hearing suggests, and given the fact we are the science 
and technology committee, we should be exploring the use and 
development of renewable sources of energy, such as wind and solar-
powered technologies.
    Bakken crude oil is an important contributor to our energy 
portfolio, is a vital economic resource, and helps keep domestic energy 
costs low. While we need to do all we can to keep energy costs low for 
hardworking middle class families, we must address the real world 
consequences associated with crude-by-rail safety issues and potential 
accidents. Both these concerns and consequences are increasing as more 
crude oil moves along more miles of track than ever before creating new 
risks and potential hazards. The National Transportation Safety Board 
(NTSB), for instance, describes nine significant crude oil accidents by 
rail from 2006 through February of this year. However, eight of those 
accidents have occurred since March 2013. The most significant accident 
occurred in Lac Meegantic in Queebec, Canada in July 2013, involved 72 
rail cars carrying Bakken crude oil and resulted in the destruction of 
30 buildings and the death of 47 residents of that town. Other less 
serious accidents have occurred since then in Alabama, North Dakota and 
Virginia, for instance.
    To help address some of the known safety issues in transporting 
light crude oils, and working with industry, the Pipeline and Hazardous 
Materials Safety Administration (PHMSA) came out with proposed 
regulations two months ago regarding crude-by-rail safety issues, 
including methods to help reduce the risk of accidents and areas for 
improved safety and response to these potential hazards. I am happy we 
have a PHMSA witness here today to help discuss their efforts regarding 
improved safety conditions for transporting crude oil by rail.
    I am also particularly pleased that we have a witness from my home 
district of Syracuse, New York, Mark Zoanetti, the Deputy Chief of 
Special Operations for the Syracuse Fire Department who can help 
discuss the real world consequences of these hazards, how first 
responders need to train to address these threats, and potential 
improvements that would help them respond to these and other hazards 
involving railcar safety issues. Trains carrying Bakken Crude Oil 
traverse the length of my Upstate New York District on their way to 
Albany, New York and major East Coast refineries. Using CSX rail lines, 
these trains can be up to a mile and 120 tank cars long, carrying 
roughly 85,000 barrels of oil. Given the high frequency and volume of 
Bakken Crude Oil transport through my Upstate New York and other 
regions of the Country, it is important that we address the public 
safety concerns of this issue. Thank you for being here today Deputy 
Chief Zoanetti and I look forward to your testimony and the testimony 
of all of our witnesses.
    With that I yield back.

    Chairwoman Lummis. Thank you, Mr. Maffei. And I understand 
it is Maffei like buffet, not fi. And I am Lummis, rhymes with 
hummus so we are in the food groups--
    Mr. Maffei. Exactly.
    Chairwoman Lummis. --with our names. Okay. Thank you.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Chairwoman Lummis. It is now time to introduce our first 
panel of witnesses. Our first witness is Mr. Chris Smith, 
Principal Deputy Assistant Secretary for the Office of Fossil 
Energy at the Department Of Energy. Mr. Smith was appointed in 
2009 as Assistant Secretary for Fossil Energy's Office of Oil 
and Natural Gas. Prior to joining DOE, Mr. Smith spent 11 years 
with international oil companies focused on upstream business 
development and LNG trading.
    Our second witness today is Mr. Timothy Butters, Deputy 
Administrator for Pipeline and Hazardous Materials Safety 
Administration at the Department Of Transportation. Prior to 
joining PHMSA, he served as the Assistant Chief of Operations 
for the City of Fairfax Fire Department. He served as the 
Chairman of the Hazardous Materials Committee for the 
International Association of Fire Chiefs. Deputy Administrator 
Butters also previously served ten years as Managing Director 
of the Chemical Transportation Emergency Center.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which members of the committee will 
have five minutes each to ask questions. Your written testimony 
will be included in the record of the hearing.
    It is the practice of the Subcommittee on Oversight to 
receive testimony under oath, so, gentlemen, if you would 
please now stand and raise your right hand.
    Do you solemnly swear or affirm to tell the whole truth and 
nothing but the truth, so help you God?
    Let the record reflect that the witnesses participating 
have taken the oath.
    Thank you, gentlemen. You may be seated.
    I now recognize our first witness, Mr. Smith, for five 
minutes.

                 TESTIMONY OF MR. CHRIS SMITH,

 PRINCIPAL DEPUTY ASSISTANT SECRETARY, OFFICE OF FOSSIL ENERGY,

                   U.S. DEPARTMENT OF ENERGY

    Mr. Smith. Chairwoman Lummis and Broun, Ranking Members 
Swalwell and Maffei, and members of the subcommittee, thank you 
for the opportunity to appear before you today to discuss oil 
production in the Bakken formation.
    As you know, the United States is experiencing a 
renaissance in oil and gas production. According to the Energy 
Information Administration, U.S. oil production averaged an 
estimated 8.5 million barrels per day in July, the highest 
monthly level of production since April of 1987. The 2015 
forecast of 9.3 million per day represents the highest annual 
average level of oil production since 1972. This domestic oil 
boom is due primarily to the new unconventional production of 
light sweet crude oil from tight oil formations like the Bakken 
in North Dakota, as well as the Eagle Ford and the Permian 
Basin in Texas. These private developments were made possible 
in part by three decades of industrial research cost-shared by 
the Department of Energy into technologies such as hydraulic 
fracturing, horizontal drilling, and three-dimensional mapping.
    The Department of Energy has been actively engaged with our 
colleagues at the Department of Transportation in addressing 
the challenges associated with moving this wealth of new 
production to market. While the Department of Energy does not 
collect data on the specific volume of petroleum products 
transported by rail, data from the North Dakota Pipeline 
Authority indicates daily export volumes by rail from North 
Dakota have increased over the past few years from 70,000 
barrels per day to over 700,000.
    There is growing public concern over the safety of 
transportation of crude oil by rail and the public is looking 
to the government for appropriate oversight and regulations to 
ensure their safety. These public concerns were voiced in 
Bismarck, North Dakota, last month at a public forum in which 
Secretary Ernie Moniz and Secretary of Transportation Foxx 
participated in as part of the Administration's Quadrennial 
Energy Review.
    Ensuring public confidence in the safety of these shipments 
is a priority, particularly because this domestically produced 
oil is important for American energy security and our economic 
prosperity. To that end, it has become clear that the continued 
realization of this tremendous resource may require additional 
measures to address safety concerns of the communities where it 
is extracted and through which it is transported.
    In light of this new and growing resource, various efforts 
have been launched by the Federal and State Governments and 
industry to better understand the safety aspects of moving 
Bakken and other crude oils from tight oil formations. The most 
detailed understanding of the chemical and physical 
characteristics of Bakken crude oil is based on two studies: 
PHMSA's Operation Safe Delivery report and a study by Turner, 
Mason & Company on behalf of the North Dakota Petroleum 
Council.
    Based on our review of these two studies and drawing on our 
general knowledge of crude oil, the Department of Energy 
considers Bakken to be a light sweet crude oil that can be 
considered more volatile than some, but not necessarily all, of 
the other crude oils produced in the United States.
    The North Dakota Petroleum Council and the PHMSA studies 
are based on test and analyses of the physical and chemical 
properties of a statistically significant set of Bakken crude 
samples collected from above-ground storage tanks at various 
individual leases and rail-loading facilities throughout the 
Bakken.
    Volatility is a measure of the tendency for a material to 
vaporize; that is the ease with which it changes from a liquid 
to a gaseous state. Crude oil contains numerous different 
hydrocarbon components with different volatilities. The lower 
molecular weight hydrocarbon constituents such as ethane, 
propane, and butane are more volatile than hydrocarbons with 
high molecular weight, and the volatility of any particular 
crude oil will increase as the concentrations of these lower 
molecular weight constituents rise.
    DOE has not attempted to make any detailed comparison 
between Bakken crude oil and other forms of crude oil. In 
support of the Department of Transportation, which has the 
preponderance of federal regulatory responsibilities in this 
area, the Administration is considering further investigation 
into the properties of these crudes from tight oil formations 
and how these properties may attribute to their safe handling 
and transport.
    At the end of the day, if we are to realize the full 
potential of the type of oil found in the Bakken and other 
formations, we need to make sure that it is extracted and 
transported safely. The Department of Energy stands ready to 
lend its expertise and experience to that effort.
    With that, I would be happy to answer any questions that 
the Committee might have at this time, and thank you for giving 
me the opportunity to testify today.
    [The prepared statement of Mr. Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairwoman Lummis. Thank you, Mr. Smith.
    I now recognize our second witness, Mr. Butters, for five 
minutes.

               TESTIMONY OF MR. TIMOTHY BUTTERS,

 DEPUTY ADMINISTRATOR, PIPELINE AND HAZARDOUS MATERIALS SAFETY 
                        ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Butters. Good afternoon. Madam Chairwoman Lummis, 
Chairman Broun, Members Swalwell and Maffei, and other members 
of the committee, thank you for the opportunity to appear 
before you to discuss PHMSA's data results and testing of 
Bakken shale crude oil.
    Safety is the number one priority for Secretary Foxx and 
everyone in PHMSA, as well as the other modal administrations 
within the U.S. Department of Transportation. It drives 
everything we do. PHMSA works diligently to protect people and 
the environment from the risks of hazardous materials by all 
modes of transportation, air, surface, marine, and pipeline.
    The United States is seeing historic highs in domestic 
production and transportation of crude oil and natural gas. 
This is a positive development for our nation's economy and 
energy independence. These products are also considered 
hazardous materials and the safety responsibilities associated 
with their production and transportation are serious and 
significant. The volume of crude oil transported by rail, 
barge, pipeline, and truck throughout the United States is 
greater than ever, and it is DOT's responsibility to ensure 
these hazardous materials are transported safely.
    The production of shale crude oil in the Bakken region has 
elevated North Dakota as the second-largest oil-producing State 
in the United States. As of March of 2014, over a million 
barrels of oil was produced every day in North Dakota, the 
majority of which was transported by rail. In 2009, as was 
noted earlier, approximately 11,000 carloads were moved by rail 
compared to more than 400,000 in 2013.
    These compelling statistics and the recognition of DOT's 
regulatory responsibility for safety is why Secretary Foxx and 
Administrator Quarterman deemed it important to visit the crude 
oil production facilities in North Dakota several times last 
year. Within the last year, DOT has taken aggressive actions on 
multiple fronts to reduce risks and ensure the safe 
transportation of crude oil and other flammable liquids by 
rail. These actions include more than two dozen initiatives to 
strengthen the way shale crude oil is delivered, including 
conducting unannounced spot inspections, issuing emergency 
orders, safety advisories, and proposing new regulations to 
enhance the safety of rail tank cars using the transport of 
this oil.
    In August 2013 we initiated Operation Classification in the 
Bakken Shale formation to verify and ensure that shippers were 
properly classifying crude oil for transportation in accordance 
with the Federal Hazardous Materials regulations. Observations 
by DOT field inspectors, coupled with the recent serious rail 
accidents in Canada and the United States involving shale crude 
oil led us to more closely examine crude oil being produced in 
the Bakken region in terms of its flammability and volatility. 
PHMSA wanted to better understand the unique characteristics of 
mined gases and oils from the Bakken region and ascertain the 
range of physical and chemical properties.
    Operation Classification involved months of unannounced 
inspections, testing, and analysis of shade crude oil from the 
Bakken region. Our report, Operation Life Safety Update, which 
was released in July of this year, provides a summary of our 
testing and sampling activities from August of 2013 through May 
of 2014. During that period, a total of 135 samples were 
analyzed and are included in this summary. PHMSA contracted 
with Intertek Laboratories, a nationally recognized ISO 9001 
certified lab to test all the crude oil samples. Operation 
Classification determined that Bakken Shale crude oil is more 
ignitable and flammable due to higher dissolved gas content, 
higher vapor pressure, lower flashpoint and boiling point than 
other types of crude and thus has a higher degree of 
volatility, which was noted as a tendency for a material to 
vaporize.
    PHMSA's analysis notes that Bakken crude oil is more 
ignitable and flammable than any other types of--many other 
types of crude, specifically those heavy crude oils. Further, 
the majority of this crude oil displayed characteristics 
consistent with a Class 3 flammable liquid, Packing Group 1, 
which is the group designated for highest hazardous materials 
within a Class 3 flammable liquid category.
    Since PHMSA's Operation Safe Delivery Update was issued, we 
continued our testing and sampling activities and we also 
refined our collection method. PHMSA now uses a closed sampling 
method through the use of a closed-type syringe to minimize the 
potential for any dissolved gases to escape during collection, 
thus providing increased accuracy. PHMSA is also taking samples 
at other shale locations around the United States to further 
compare and characterize crude oil with that of the Bakken 
region.
    PHMSA plans to provide updates to its testing and sampling 
activities and work with other government agencies and the 
regulated community to ensure the safe transportation of crude 
oil across the country. DOT appreciates this committee's 
attention to this very important safety issue. If America is 
going to be a world leader in producing energy, it is the 
Department's commitment and our job to ensure that we are also 
a world leader in transporting it safely.
    Thank you again for the opportunity to appear and I will be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Butters follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairwoman Lummis. I thank the witnesses for their 
testimony. And we will now have a period of questioning. Each 
member of the committee will have five minutes to ask 
questions, beginning with the Chairman. So I will begin the 
questioning with five minutes.
    And, gentlemen, again thank you for being here today.
    I want to focus very narrowly on the scientific 
characteristics of Bakken crude. And my first question, Mr. 
Butters, is is Bakken light sweet crude oil different from 
other light sweet crude oils?
    Mr. Butters. The Bakken Shale crude oil is generally 
consistent with other light sweet crude oils.
    Chairwoman Lummis. So it is fair to say that if you are 
comparing Bakken light sweet crude oil to other light sweet 
crude oils that are produced outside of the Bakken, that you 
have not yet found any different characteristics when comparing 
light sweet to light sweet?
    Mr. Butters. Well, our data clearly shows that to this--the 
Bakken Shale crude oil is a highly flammable crude oil, and the 
data that has come from other sources, the petroleum industry, 
also suggest the same thing, that these lower boiling points, 
flashpoints, vapor pressures, et cetera, put this in a highly 
flammable category of oil.
    Chairwoman Lummis. Okay. My question, however, is does the 
Bakken light sweet crude differ in characteristics from other 
light sweet crudes?
    Mr. Butters. Well, as I said, the data is consistent with 
flammability. And keep in mind that PHMSA's role--
    Chairwoman Lummis. Excuse me.
    Mr. Butters. I am sorry.
    Chairwoman Lummis. Consistent with flammability, so meaning 
light sweet crude from the Bakken compares equivalently with 
the flammability of light sweet crude from elsewhere? I am 
trying to compare apples to apples--
    Mr. Butters. I understand--
    Chairwoman Lummis. --light sweet to light sweet.
    Mr. Butters. I understand that. Keep in mind that our 
analysis was--there were two objectives for our analysis. One 
was to better understand the chemical and physical properties 
of the Bakken crude oil--
    Chairwoman Lummis. Um-hum.
    Mr. Butters. --and because of the risk in the volume that 
is moving across this country, that is why the focus was on 
that material.
    Chairwoman Lummis. Okay. And--
    Mr. Butters. The second purpose was to ensure that shippers 
were classifying this oil properly prior to transportation.
    Chairwoman Lummis. Excellent. Am I--I understand what the 
purpose was. Right now I am just concentrating on the science 
and I am trying to make an apples-to-apples comparison. Is 
Bakken crude more volatile than other light sweet crude that is 
not produced in the Bakken? Yes or no?
    Mr. Butters. All I can speak to is the analysis that we 
conducted on the Bakken shale oil, not-
    Chairwoman Lummis. Okay. So you haven't studied other light 
sweet crudes? You have only studied Bakken light sweet crudes?
    Mr. Butters. We have taken samples of--from other shale 
plays, but the predominant sampling that we have taken is from 
the Bakken region. And again, it is because of our role in 
terms of the transportation of this--
    Chairwoman Lummis. Um-hum.
    Mr. Butters. --hazardous material, we wanted to be sure 
that we, number one, understood what it was-
    Chairwoman Lummis. Um-hum.
    Mr. Butters. --and, number two, that shippers were properly 
classifying this material, putting it in the proper container 
prior to transportation.
    Chairwoman Lummis. Mr. Smith, is Bakken light sweet crude 
different from other light sweet crude in terms of volatility, 
flammability?
    Mr. Smith. Thank you for the question, Chairman--
Chairwoman.
    So, generally speaking, so I give an answer that is 
generally consistent with the answer that Mr. Butters gave, it 
is generally consistent in many cases with other light sweet 
crudes but I would note that crude oils vary--
    Chairwoman Lummis. Yes.
    Mr. Smith. --in their composition, they vary in the 
geologic settings in which they are created, and therefore, 
every crude oil is going to be different. But as a general 
categorization, crude oil that is coming out of light--out of 
tight formations will tend to have a higher level of volatility 
than most but not necessarily every other light crude. But 
again, to emphasize that every crude oil--crude oils are 
complex--they are complex materials. They are all different, as 
anyone who has worked in the refining sector or other 
processing or chemical sectors will tell you, crude oils are 
different, they vary, and it is something that bears--
    Chairwoman Lummis. Okay.
    Mr. Smith. --further study.
    Chairwoman Lummis. Acknowledging that crude oils are 
different, all I am really interested in was the yes or no, 
whether Bakken has been found to be different from other light 
sweet crudes. I will take it that the answer is no, it has not 
been found to be different from other light sweet crudes; it 
has been found to be different from intermediate crudes and 
heavies?
    Mr. Smith. Well, that is not exactly the answer I gave. The 
answer is that all crudes are different and Bakken crudes would 
tend to be more volatile than many other light crudes. But 
again, all--
    Chairwoman Lummis. Oh, so it is different?
    Mr. Smith. All--
    Chairwoman Lummis. Do we know it is different? Is it 
different?
    Mr. Smith. So we do know that Bakken crudes, when you 
compare them to other--first of all, we do know that all crudes 
are different.
    Chairwoman Lummis. Right.
    Mr. Smith. You look at chemical compositions of crude oil 
that comes from different sources, you do see lots of 
differences in crude oils. So there are things that we know, 
there are things that we don't know, so I can't categorically 
compare Bakken crude with every other crude that exists, but I 
can state that there are differences within crude oils and oil 
that comes out of tight formations does tend to have a higher 
level of volatility than crudes that come out of other sources.
    Chairwoman Lummis. My time is expired. I now recognize Mr. 
Swalwell for five minutes.
    Mr. Swalwell. Thank you, Chairwoman Lummis.
    Mr. Butters, in PHMSA's July 23 report entitled ``Operation 
Safe Delivery Update,'' did you find any substantial difference 
in the volatility of Bakken crude when compared to other light 
sweet crudes like West Texas Intermediate or Brent Crude just 
to try and clarify and follow up on the Chairman's question?
    Mr. Butters. I understand. The purpose of the report was 
not to compare different types of crude oil. The purpose of our 
study was to understand the physical and chemical 
characteristics of the product because of our role as the 
safety oversight agency in the transportation of hazardous 
materials.
    Mr. Swalwell. Would it be safe to say then that you did not 
intend to indicate any such difference?
    Mr. Butters. Our intent was to understand the product, the 
physical and chemical properties of the product in terms of its 
flammability, to ensure that it was being properly classified 
and categorized for transportation. If you look at the range of 
crude oils ranging from the very heavy to the very light, 
Bakken crude oil falls on the light side and therefore 
consistent with higher flammability ranges.
    Mr. Swalwell. And a Bakken crude oil on the light side, the 
light sweet crude, would be more volatile, correct, than a 
crude imported from Saudi Arabia or Venezuela categorized as a 
heavy crude?
    Mr. Butters. Well, that would have to be compared against 
its chemical and physical properties.
    Mr. Swalwell. Can you tell us how the chemical and physical 
properties can help us determine volatility?
    Mr. Butters. Certainly. In the case of the Bakken crude 
oil, it has a higher amount of dissolved gases, the C1's 
through C4's, for example. The flashpoint is lower, which is 
the temperature at which there is a higher propensity to 
ignite. The boiling point is lower, which is the point at which 
the liquid tends to vaporize. And all of that contributes to 
increased flammability.
    Mr. Swalwell. And is PHMSA in any way attempting to inhibit 
the development of Bakken crude or do you believe that it is 
solely focused on ensuring that when we develop and transport 
this domestic resource we do it as safely and as reasonably as 
possible?
    Mr. Butters. The latter. We--our responsibilities are to 
ensure that hazardous materials, no matter what form they are 
in, are properly classified and put in the proper container, 
properly communicated in accordance with the hazmat 
regulations.
    Mr. Swalwell. And Mr.--and thank you, Mr. Butters.
    Mr. Smith, does DOE have any estimate on the size of this 
resource, meaning how long do you think Bakken crude will be 
around and explorable?
    Mr. Smith. Well, thank you for the question, Congressman.
    So it is a very large resource. So our estimate is it is 
something over three billion barrels of crude resources, and 
that is indeed a moving target because when you look at proven 
resources, the measure of proven resources is based on your 
economic and commercial ability to produce the formations. So 
it is safe to say it is a very, very large formation, it is a 
very large resource, and we think it is going to be an 
important part of our energy mix for years to come.
    Mr. Swalwell. Great, thank you. I yield back the balance of 
my time.
    And if the Chairman has any further questions, I would be 
happy to yield to the Chairman for followup.
    Chairwoman Lummis. I thank the gentleman and I will 
actually allow you to surrender that time and yield to Mr. 
Broun.
    Mr. Broun. Chairman, before we start my time and 
questioning, I would like to take a point of personal privilege 
just to make a statement, and that is that we can see now why 
did we invite technical scientific experts in the field instead 
of political witnesses?
    Mr. Butters, your inability to provide us a clear answer to 
not only Chairman Lummis' questions but even my friend Mr. 
Swalwell's questions about this, you are not providing us 
straight answers, and that just reinforces what I said in my 
beginning statement.
    So if I could have my time, I would appreciate it. That is 
the reason why I am so extremely disappointed in the 
Administration not providing technical witnesses.
    Chairwoman Lummis. The Chair recognizes Mr. Broun.
    Mr. Broun. Thank you, Madam Chair. If you would start my 
time, thank you.
    Mr. Butters, the PHMSA study claims that while Bakken crude 
``does not demonstrate the characteristics of a flammable gas, 
corrosive liquid, or toxic material, it is more volatile than 
other types of crude, which correlates to increased 
ignitability and flammability.'' Is the claim about 
ignitability and flammability a scientific assessment or are 
they synonymous with the term volatility, and if not, is the 
report projecting a false image of the properties of Bakken 
crude?
    Mr. Butters. If I understand--Congressman, if I understand 
your question, our analysis of the Bakken Shale crude oil 
clearly characterized this material as highly flammable due to 
its low flashpoint, low boiling point, vapor pressures.
    Mr. Broun. Well, we understand it is flammable--
    Mr. Butters. Yes.
    Mr. Broun. --but is ignitability and flammability 
synonymous with volatility?
    Mr. Butters. Well, volatility in the science vernacular is 
a material's propensity to vaporize, and so as a flammable 
liquid has a higher propensity to vaporize, then it 
introduces--it has a higher likelihood of ignitability because 
of the low pressure--
    Mr. Broun. Can you answer yes or no to this question? I 
don't get what these--
    Mr. Butters. Well, I am trying to answer the question.
    Mr. Broun. I have got limited time. I have got several 
questions.
    Mr. Butters. Okay.
    Mr. Broun. Okay. Obviously you can't answer it. Again, that 
just reiterates my disappointment.
    Following up with you, Mr. Smith, according to your written 
testimony, ``DOE believes that more scientific analysis is 
needed to better define the relationship between volatility and 
ignitability/flammability.'' This appears to contradict the 
PHMSA conclusion, what we heard this mumbo-jumbo from Mr. 
Butters. So just to be absolutely clear, is it fair to say that 
DOE's position is that volatility is not a sufficient indicator 
of a material's ignitability and flammability characteristics, 
and that this conclusion in the PHMSA report may be 
exaggerating the conclusiveness of volatility as it relates to 
other petroleum characteristics?
    Mr. Smith. Well, thank you for the question, Congressman.
    So what I can speak to is DOE's experience and the research 
that we are doing and the science and the risk that has to do 
with moving these hydrocarbons. So I can--
    Mr. Broun. You all ask that there be more scientific 
analysis, that is correct?
    Mr. Smith. That is what we are undertaking.
    Mr. Broun. Okay.
    Mr. Smith. That is correct.
    Mr. Broun. And it is the discussion between the volatility 
versus the ignitability and flammability, you see that as two 
different issues from your own written statement, whereas Mr. 
Butters is saying they are basically one in the same--
    Mr. Smith. Well--
    Mr. Broun. --so you all contradict each other.
    Mr. Smith. I did not--
    Mr. Broun. Would you agree with that?
    Mr. Smith. I did not hear him say they are one in the same, 
but I can tell you what DOE's position is, which is generally 
consistent with the position coming out of PHMSA. Volatility, 
flammability, ignitability are different things. They are 
different characteristics. Volatility, as Mr. Butters 
explained, is the propensity of a material to vaporize, so that 
is your light ends coming out of the crude. Ignitability and 
flammability are properties of the material in terms of their 
propensity to ignite, to catch fire, or to burn, so--
    Mr. Broun. Well, water vaporizes, too, so it is not 
ignitable, so it is two different things here, is that--
    Mr. Smith. And--
    Mr. Broun. And that is what you all are saying but Mr. 
Butters is trying to equate them in my opinion. Let me ask you 
both this: Would you agree that gasoline and even more so 
ethanol is more volatile, particularly volatile and also has a 
greater flammability than does light crude? Would you both 
agree to that?
    Mr. Smith. Ethanol is--
    Mr. Broun. Yes or no? Ethanol more than light crude?
    Mr. Smith. Ethanol is a very well understood and 
consistent--
    Mr. Broun. Yes or no?
    Mr. Smith. I can't--
    Mr. Broun. Is it more volatile and more flammable than is 
light crude?
    Mr. Smith. I can't give you a yes or no answer to that 
question.
    Mr. Broun. Okay. Mr. Butters--
    Mr. Smith. I could explain the different between the two.
    Mr. Broun. --do you want to answer yes or no to this?
    Mr. Butters. That answer--a yes or no answer would not do 
the question justice, Mr. Congressman.
    Mr. Broun. Well, ethanol, it evaporates--if we were to pour 
out some ethanol on the desk right there, it would evaporate 
much quicker than light crude would, and if you set a match to 
it, it would be easier to set it on fire than it would be light 
crude no matter what kind of light crude, whether it is Bakken 
light crude. You all never answered Chairwoman Lummis' question 
because we really don't know. We need more scientific analysis.
    The best way to transport all these things would be by 
pipeline, and this Administration has blocked pipeline 
production. And I am, as well as my Democratic colleagues are, 
very concerned about safety. I am a physician and to me it is 
tragic that this Administration is blocking the transportation 
of not only Bakken light crude but Canadian oil sands crude and 
any other crude. We need to have pipelines instead of--and 
transport these things in a very safe way.
    Madam Chair, my time is run out. I yield back.
    Chairwoman Lummis. The Chair now recognizes Mr. Maffei.
    Mr. Maffei. Thank you, Madam Chair.
    I am going to take this opportunity to do the rare thing of 
disagreeing with my friend from Georgia about these witnesses. 
And I don't know what--maybe I am misinterpreting what he is 
saying, but I feel--
    Mr. Broun. Would the gentleman yield--
    Mr. Maffei. Well, let me tell you my disagreement first and 
then I am happy to yield.
    So I--look, if you ask for specific witnesses and the 
Departments didn't give you those specific witnesses, that is 
fine. I don't see how it is a point of personal privilege, but 
that is something different.
    But I will say this, the reason why these gentlemen are not 
able to answer your or the good Chairwoman's question are not 
because they are not qualified to answer them; it is because 
you are asking questions as if they are yes and no that don't 
have yes and no answers.
    Now, we on the Science Committee have a bit of a 
responsibility I believe to at least respect the language that 
science uses, and science doesn't always have easy yes or no 
answers. If you want to go to the Committee on Oversight and--
the full Committee on Oversight and question people about this 
email or that email being lost or something, that is when you 
can say yes or no, but you are actually--the gentlemen are 
frankly more in agreement I believe with the point of view that 
you are interested in getting, but because you are consistently 
badgering them by saying yes or no, yes or no, it is not going 
to lead to what you want.
    And frankly, Mr.--Chairman Broun, using the term mumbo-
jumbo to describe Mr. Butters' testimony I found offensive. He 
is here, he has, I thought, written very good and informed 
testimony, and I just--so I am taking this rare opportunity to 
say that. You and I don't disagree very often about the 
operations of this committee, but I really think that these two 
gentlemen deserve respect. For whatever reason they are the 
people from these--they are distinguished public servants from 
these particular agencies and they are giving us good 
information to the best of their ability given the--what you 
are asking.
    I am happy to yield.
    Mr. Broun. I thank the gentleman for yielding. The question 
was we invited scientific technical experts but the 
Administration refused to provide those to us. The witnesses we 
have are political experts, and the statement about mumbo-jumbo 
was basically geared towards--volatility is a scientific, 
measurable--as well as flammability are scientific, measurable 
issues, and what I was saying is that the answer I was getting 
was not based on science but it is because, as you say, they 
are doing the best they can and I do respect every--I 
apologize--
    Mr. Maffei. Reclaiming my time, Mr. Butters, do you have 
any scientific qualifications? What is your background?
    Mr. Butters. My background is I have been in the emergency 
response business for well over 30 years, primarily in 
hazardous materials. I--as an operational officer with both 
Fairfax County and Fairfax City and as Chairman of the 
Hazardous Materials Committee for the International Association 
of Fire Chiefs. I have handled a number of hazardous materials 
incidents in the field. I understand how hazardous materials 
behave. I have had background training in hazardous materials 
chemistry. Am I a chemist by formal education? No. But I do 
have quite a bit of experience in this particular area and I 
have been managing--overseeing this Operation Safe Delivery 
since its inception. At the Department of Transportation I was 
specifically assigned this because of my background in this 
area, and--
    Mr. Maffei. Thank you, Mr. Butters. I don't mean to 
interrupt you, but I will take the opportunity to thank you for 
your service and probably at personal risk to you at times 
during your career.
    My point is simply that I am not sure if you are right, Mr. 
Broun. I acknowledge that when we asked for a particular 
witness, we should get a good reason for that--why that witness 
isn't coming forth from the Administration. But that said, I 
believe if these witnesses were--gave you even more scientific 
answers, you would be even more frustrated with them. You are 
asking for a comparison of volatility that both of you--but as 
far as I remember both of you asked for a comparison of 
volatility to all crude oils or to all light sweet crude oils, 
and they can't answer those questions because there are so many 
different variables. I, by the way, messed up in my opening 
statement. I defined volatility as something that I think is 
probably closer to flammability, and even that was probably a 
colloquial definition.
    These are scientific issues and I just--I don't know, I 
implore that all of us should understand that the--when we are 
asking these questions that may have complex answers--you know, 
we are not on the campaign trail. We should allow the witnesses 
to give us that complex answer and--that you may be surprised 
that that answer actually comports fine. I mean my view on this 
is that it is going to be transported; sure, it is volatile but 
so is so many other things that we transport. It is just 
because of the increased volume that is being transported we 
need to look at the safety considerations, no more, no less.
    I would--I am over time so thank you very much.
    Chairwoman Lummis. The Chair now recognizes Mr. Cramer, the 
gentleman from North Dakota.
    Mr. Cramer. I thank the Chair and I thank the witnesses.
    I want to also say I appreciate Secretary Moniz and 
Secretary Foxx, who have been very engaged with--at least with 
the North Dakota Delegation on this topic, and Administrator 
Quarterman as well.
    And I wanted to focus a little bit--Mr. Butters, in your 
pre-filed testimony on page 7 you state that the focus on the 
Bakken region is because there was some question of whether 
materials were properly classified and characterized by 
shippers. Did you find any misclassified--obviously this would 
be an area of your expertise I suspect quite specifically, but 
find this classified material in the course of the research?
    Mr. Butters. Thank you, Congressman. Yes, we did. We did--
as part of our inspections, we did find some shippers were 
using generic safety data sheets, MSDSs, as their tool for 
classifying this material. They were not analyzing the actual 
product that they were offering for transportation. And 
classification of the product correctly and accurately is 
critical to ensure that it is transported safely.
    Mr. Cramer. So I want--then I want to get to the packing 
group designation, which I think you speak to as well in your 
testimony. Why is light crude like Bakken or WTI--why is it--it 
is regulated under Packing Group 1--I think you testified to 
that--while ethanol, gasoline, and other flammables are--
volatile Class 3 liquids are regulated under Packing Group 
number 2, which is less stringent is my understanding? 
Understanding these other Class 3 flammable liquids are being 
transported using the DOT 111's, how do we reconcile that with 
what we are seeing from the rules? So you have a less stringent 
fuel that is classified more dangerous or--more dangerous in my 
view if I understand this correctly being classified as less 
dangerous in terms of the packing class? Am I misreading this?
    Mr. Butters. Let me see if I can answer your question. 
Obviously, our safety regulations divide hazardous materials 
into 9 DOT classes. Bakken Shale oil is classified as a Class 3 
flammable liquid. Within that class, as in all 9 classes, there 
are 3 packing groups. Packing Group 3 is considered the least 
hazardous, Packing Group 2, sort of median level--
    Mr. Cramer. Right.
    Mr. Butters. --and Packing Group 1 is considered the 
highest hazard of a--for material. So the Bakken crude oil, 
because of its flammability, has been determined to be a 
Packing Group 1 material.
    Mr. Cramer. So--and as I understand this, ethanol Packing 
Group 2 then?
    Mr. Butters. Yes.
    Mr. Cramer. So I want to get then to Chairman Broun's 
illustration and realize maybe you can't answer it from a 
compound standpoint, so let me ask it from a layman's 
standpoint. If I had a 1 gallon container of ethanol and a 1 
gallon container of sweet light crude--let's call it Bakken 
today--and I drop a match in each one, which one is going to 
ignite?
    Mr. Butters. Well, they will both ignite. They both have 
flammable--flammability characteristics that they will ignite. 
I mean I--it is hard to say under the scenario you are 
describing but they both--both products have flammability--you 
know, flammability ranges that will support combustion--
    Mr. Cramer. But if one is a number 1 and one is a number 2, 
it seems that the number 1, which in this case is light crude, 
would be more flammable, more ignitable than the other unless 
there is something that I am not understanding. Is there some 
dynamic beyond that that I am not understanding? Because from a 
layman's standpoint it is hard to believe that light sweet 
crude is more ignitable then refined petroleum product like 
ethanol or gasoline.
    Mr. Butters. Well, again, it is based on its flashpoint and 
boiling point, and that determines which packing group the 
flammable liquid is assigned to under our regulations.
    Mr. Cramer. So an equal flame dropped in the two 
containers, they would respond roughly the same or differently?
    Mr. Butters. They would both ignite is--if that is--
    Mr. Cramer. Okay. And then I want to go with one other 
thing before I run out of time. Do you guys worry--you 
mentioned in your testimony that more study is necessary and we 
talked about a specific focus on Bakken sweet crude. Are there 
plans to broaden the study considering all the plays that might 
be out there and all the potential there might be for a lot 
more of this product to be moved by rail?
    Mr. Butters. Well, we are going to continue our sampling 
this year and then we will continue to look at the need for 
additional sampling as we go forward.
    One point I would want to mention about the difference 
between the Bakken Shale oil and ethanol, ethanol is a refined 
product--
    Mr. Cramer. Um-hum.
    Mr. Butters. --unlike the Bakken oil, which is essentially 
a raw product that comes right out of the ground and 
essentially may go through--some goes through a heated treated 
process to remove some of the gas content, but it is 
transported in a very raw form, so that is important to 
understand in terms of how the product is treated for 
classification.
    Mr. Cramer. Sure, but we are talking--yes, I understand 
that, but if we are talking about flammability, what happens, I 
don't know that--beforehand that doesn't matter but I am way 
over time. Thank you.
    Chairwoman Lummis. The Chair recognizes the gentleman from 
Texas, Mr. Veasey, for five minutes.
    Mr. Veasey. Thank you, Madam Chair.
    I wanted to ask Mr. Smith just to help us understand and 
give me a better understanding of the difference between these 
psi readings because I was reading an article that said that in 
the Bakken there were vapor pressure readings of over 8 psi and 
sometimes those readings reached as high as 9.7 psi. Now, when 
you compare that to--according to this pipeline data, the 
Louisiana light sweet crude had a vapor pressure reading of 
3.33 psi. How significant of a difference is that when we talk 
about volatility?
    Mr. Smith. Thank you, Congressman, for the question.
    So when you look at these psi ratings, that is a measure of 
vapor pressure for the various types of crude. So the vapor 
pressure is a measure of the light ends that is included in the 
crudes, be it ethane, propane, butane. So light crudes 
generally have a psi rating, you know, somewhere around 10. The 
higher the rating, the more ethane, butane, propane will be in 
the crude. So when you look at those statistics, and I am not 
sure exactly where the ones that you cite are from but I can 
say directionally a higher psi rating will just include--will 
indicate that there is a greater content of the lighter ends 
within the crude.
    Mr. Veasey. Okay. The--also from this same article, this 
study that I am looking at, it says that Tesoro Corporation, 
which is a major transport of the Bakken crude to the West 
Coast, said that it regularly received shipments from the 
Bakken with psi readings sometimes up to 12 psi. Now, was it--
would that be an unusually high reading?
    Mr. Smith. We would expect Bakken crudes to have vapor 
pressure readings from, say, 10 to 14--
    Mr. Veasey. 10 to 14, okay.
    Mr. Smith. --in that general range, so that would be fairly 
consistent for a crude coming from that part of the country.
    Mr. Veasey. Okay. Mr. Butters, I wanted to ask you, I know 
that the Chief of Staff for the Department of Transportation 
has said that it was really imperative that the petroleum 
industry and other stakeholders work with DOT to share data so 
you can make assessments as far as, you know, safety is 
concerned. Is that data-sharing--I mean that was from a quote 
from your Chief of Staff earlier this year. Are you getting the 
sort of cooperation you need to ensure public safety?
    Mr. Butters. Yes, we have been--the industry has been 
forthcoming in sharing the data that they have compiled, both 
the North Dakota Petroleum Council, the Association of Fuel 
Marketing, which represents the refiners, did some analysis. 
They shared that data with us. And individual companies have 
also shared their analysis with us as well.
    Mr. Veasey. Oh, well--yes, that is good. That is good. So I 
just wanted to close and ask you this--and I will yield back 
the time, depending on when you when you finish, to the 
Chairwoman--just from a public safety standpoint, from a pure 
public safety standpoint, is it better to ship this stuff by 
rail or by pipeline?
    Mr. Butters. Our role as the transportation safety agency 
is to ensure that any hazardous material, regardless of mode, 
is properly classified so it safely moves through that mode of 
transportation. There is a number of factors that can--that 
factor into which mode is selected, but again, our role is 
really to ensure that if it is moving in transportation, that 
it is properly classified and properly contained in the package 
that it is moving in to maximize safety.
    Mr. Veasey. Thank you, Mr. Butters. And, Madam Chair, if 
you don't mind, I would like to yield the remaining 45 seconds 
to Mr. Maffei, please.
    Chairwoman Lummis. Mr. Maffei.
    Mr. Maffei. I only have one quick question, but I think 
what we are all trying to get at is the same thing, which is 
this stuff more--forgetting the word flammable, volatile--is it 
more dangerous? And of course it is hard because there are so 
many different kinds of light crude. But let me ask it this 
way. Assuming comparable safety precautions, Mr. Butters, would 
you be more concerned about a trainload full of Bakken crude 
oil or a trainload full of light crude oil from--imported? 
Would it be more--no, I am talking about light in both cases.
    Mr. Butters. Well, I guess I would need to understand again 
the flammability of both products. I mean if we are talking 
about everything being equal, that both products you are 
describing are--
    Mr. Maffei. So the problem is you don't know what kind of 
light sweet crude it is--would be that I am comparing it to I 
would imagine but-
    Mr. Butters. Well, that is right. I mean you would need to 
know the chemical and physical characteristics--
    Mr. Broun. Why don't you just assume Bakken versus Bakken?
    Mr. Butters. Yeah.
    Mr. Maffei. So same, Mr. Smith. Is there--there is nothing 
about this that makes it particularly more dangerous than other 
kinds of light sweet crude; it is just it depends on the 
particularities of both, is that right?
    Mr. Smith. I think that is an appropriate characterization.
    The one thing I would say to that is that when--so again, 
we are not the rule makers so we work with the Department of 
Transportation in making the rule, but when we think about the 
risk of complex systems, be they the Deepwater Horizon offshore 
or issues with other unconventional oil and gas production, it 
is a systemic question. So the concern that we would have when 
we look at this is the fact that you have gone from 70,000 
barrels per day of being moved by rail to 700,000 barrels being 
moved per day. It is up--it is an order of magnitude of 10, and 
so that is where the risk comes in and that is where--
    Mr. Maffei. I am out of time and I don't want to impose on 
the Committee. But, yeah--no--but everything else being equal, 
that is the thing so--
    Mr. Smith. Yeah, but--
    Mr. Maffei. --but we will explore the volume part later.
    Mr. Smith. If I might add that that is an important factor. 
If you describe risk as probability times consequence, this 
material as a flammable liquid has significant consequences, as 
this photograph from Castleton indicates. The more volume that 
moves, that probability also goes up, so risk goes up, and that 
is really why we have focused on ensuring that this product is 
transported safely.
    Chairwoman Lummis. I assume you yield back?
    Mr. Maffei. Oh, yeah, yeah. I am way out of time. I 
apologize, Madam Chair.
    Chairwoman Lummis. Thank you. And I do appreciate your 
efforts at trying to get to the heart of this. I don't know why 
we are--yeah, I don't know why we are struggling so, but the 
Chair--perhaps Mr. Johnson can help us. The gentleman from Ohio 
is recognized.
    Mr. Johnson. Well, we will see, Madam Chairman. Thank you.
    Mr. Smith, I appreciated your phone call a few weeks ago, 
months ago about the newly revamped LNG export decision-making 
process that your office recently implemented whereby you are 
electing not to consider export authorization applications 
until individual projects had completed their environmental 
reviews. Currently two major export projects in Texas and 
Louisiana that completed their environmental reviews months ago 
are still waiting on final authorizations from DOE. So how have 
you actually streamlined your process if these two major 
projects continue to suffer under these undue administrative 
delays? Because as I recall our conversation, we talked about a 
decision forthcoming within weeks, not months, and certainly 
not years. So help me out.
    Mr. Smith. Well, thank you for the question, Congressman. 
First of all, the new process ensures that instead of walking 
down some predetermined queue of projects, we are now 
considering those projects on a case-by-case basis once they 
are ready to be considered by the Department, which means they 
have finished all of their process--
    Mr. Johnson. Okay. These two have, so what happened?
    Mr. Smith. So the next project in the queue is Cameron, 
which has recently finished the Notice for Rehearing at FERC. 
Once the project is finished the Notice for Rehearing, then it 
is eligible to be considered by the Department. So that project 
has not been waiting in the queue for months. It actually very 
recently finished that process, and we are right now going 
through the possibly--evaluating that project for consideration 
so--
    Mr. Johnson. Do you have any idea on the timeline for it?
    Mr. Smith. I can't give a commitment on timing but what I 
can say is the Department is committed to moving as 
expeditiously as possible and we are moving through that 
process--
    Mr. Johnson. But you are still committed to weeks, not 
months, as you talked to me about, correct?
    Mr. Smith. Each project is going to be different but 
certainly we think that the pace for doing these projects 
should be consistent with the pace that we have had in past 
projects, which has been on the order of weeks.
    Mr. Johnson. What about Freeport?
    Mr. Smith. Indeed. So as these projects are ready to be 
considered, they will be considered in due course--
    Mr. Johnson. Are they ready?
    Mr. Smith. Freeport is still passing through that process 
right now, but again, once they are finished with the 
rehearing, once they are done with the FERC process--
    Mr. Johnson. So they are not done as far as you are--as far 
as you know?
    Mr. Smith. My understanding is that the Cameron project is 
finished with the rehearing and I am not sure off the top of my 
head about whether or not the Freeport project--
    Mr. Johnson. Okay. We--it was our--it was my understanding 
that they were both completed with that process and had been 
waiting for--had been finished months ago and were now waiting 
on DOE authorization. So we have got differing things so I 
might reach out your office and let's compare notes and see 
what we have got.
    Mr. Smith. We would be happy to follow up--I will follow up 
on that.
    Mr. Johnson. Also, in your prepared testimony you say that 
DOE believes that more scientific analysis is needed to better 
define the relationship between volatility and ignitability and 
flammability. So, Mr. Smith, did DOE review the methodology 
used by PHMSA to arrive at the conclusion that increased 
volatility correlates with increased ignitability and 
flammability?
    Mr. Smith. Well, thank you for the question. So we have an 
ongoing discussion with PHMSA, so our view on volatility, 
ignitability, and flammability, again, those are different 
properties of any material. We think that in a laboratory 
setting for crude oil, higher volatility is going to be 
consistent with higher light ends, which do have a higher 
degree of flammability and volatility. When you are actually 
looking at a very complex system like a railcar overturning 
within a containment system that may or may not have the crude 
contained, which may or may not have pressure regulation 
devices, et cetera, that is a much more complex question that 
has--that is worthy of a lot more study.
    So to say categorically that over all cases that volatility 
is correlated with ignitability and flammability is probably 
further than we can demonstrate through our scientific studies, 
but we know in a laboratory setting when you know that the 
vapor--the material that is being vaporized is flammable, in a 
laboratory setting, again, there would be a correlation.
    Mr. Johnson. Okay. Well, quickly because I am almost out of 
time, can you provide expected benchmarks to this committee 
explaining what DOE intends to learn about the characteristics 
and behavior of Bakken petroleum?
    Mr. Smith. So we are going through the Statement of Work 
right now for this study. This is a new area of research for 
the Department. It is worth noting that the rate at which tight 
oil has increased production recently has been very dramatic. 
This is a new issue for us in terms of detailed study of having 
these crudes by rail. So we are going through right now that 
Statement of Work, which essentially is going to be able to 
allow us to offer more precise questions to the question you 
just asked, which is in the real world with a real railcar with 
a real derailment with a real fire, what would be the 
relationship between vapor pressure, volatility, ignitability, 
flammability? Those are some things that we haven't done again 
in real practical applications so we need to move from the lab 
to kind of the real-world laboratory of real railcars. So those 
are the types of questions that we will be able to answer and 
our Statement of Work will make that much more clear as we 
develop it.
    Mr. Johnson. Okay. All right. Thank you.
    Madam Chairman, I yield back.
    Chairwoman Lummis. The Chair now recognizes the gentleman 
from Texas, Mr. Weber.
    Mr. Weber. So that was an interesting exchange talking 
about the railcars overturning, and of course you know, my 
grandfather used to say that to a hammer everything looks like 
a nail, and I guess to a match everything looks like it is 
ignitable. So if a railcar overturns, what it really needs is 
an ignition source. Is that true, Mr. Smith?
    Mr. Smith. If there is going to be a fire, there has to be 
an ignition source.
    Mr. Weber. It has got to have an ignition source?
    Mr. Smith. That is correct.
    Mr. Weber. Mr. Butters, you mentioned earlier that PHMSA 
went out and collected crude oil samples and I think you said 
they got them from the tanks around and about presumably in 
North Dakota?
    Mr. Butters. Congressman, we drew samples from a number of 
different sources.
    Mr. Weber. Well, we are talking about the Bakken Shale.
    Mr. Butters. Right, but I am--we drew samples from tanks, 
from railcars, from different--
    Mr. Weber. Okay.
    Mr. Butters. --points in the transportation process. But--
    Mr. Weber. So you have had quite a bit of discussion about 
the hydrates that are located--the ethanes, the butanes, the 
propanes, and those types of liquids that are involved in that 
shale oil and the fact that it is lighter and sweeter?
    Mr. Butters. Right, the isomers that are--
    Mr. Weber. That is right. So--and I want to--Freon changes 
state twice in the system from a liquid to a gas and back to a 
liquid so I am familiar with the boiling off and the 
vaporization point. So is it safer for pipelines? There is a 
number of facilities that will take that crude and dehydrate it 
at various different places, assuming they can get the permit 
from the DOE and from the government. But the quicker they 
dehydrate that oil, the safer it is?
    Mr. Butters. Well, again, our role in this process is to 
ensure that any--
    Mr. Weber. Let me rephrase the question. Less ethanes, less 
butanes, less propanes in crude oil, less volatility?
    Mr. Butters. If you are reducing the flammable 
constituencies of a product, then, yes, it becomes-
    Mr. Weber. Okay. We finally got a yes. So we would think 
that any pipeline situation--and you may probably know that the 
pipeline history has a 99.9 percent safety rating. Were you 
aware of that?
    Mr. Butters. Both pipeline and rail are a very safe mode of 
transportation.
    Mr. Weber. But rail does not have the same rating as a 
pipeline, are you aware of that?
    Mr. Butters. I am very familiar with the transportation of 
hazardous materials by rail, pipeline, and other methods.
    Mr. Weber. Okay. And they do not have the same rating, is 
that true, in safety?
    Mr. Butters. Depending on the product that is moved--
    Mr. Weber. Okay. Well, let me--
    Mr. Butters. --the pipeline and--
    Mr. Weber. I am glad I could be here today if for no other 
reason than to help you. They don't. Okay. Pipelines are the 
safest. So with that in mind, pipeline would be the best way to 
move this product with a higher safety rating and less 
hydrates, agree?
    Mr. Butters. Again, PHMSA and DOT's role in this is to 
ensure--
    Mr. Weber. Okay. Let me move on.
    Mr. Butters. --that any product moving in transportation-
    Mr. Weber. Let me move on. When PHMSA went out and took 
those samples, and again my question was did they have less 
hydrates or more hydrates in them, but when PHMSA went out and 
took those samples, how did you get--how did the PHMSA 
employees get there? Did they drive?
    Mr. Butters. Did they--well, they went to the jobsites. Is 
that what your--the question?
    Mr. Weber. No, how did they get to those jobsites? Did they 
drive vehicles?
    Mr. Butters. Yes, they did.
    Mr. Weber. Did they have gasoline in those vehicles?
    Mr. Butters. Yes.
    Mr. Weber. Did they know the volatility ratings of that 
gasoline?
    Mr. Butters. Do I know the volatility of-
    Mr. Weber. I--
    Mr. Butters. --refined gasoline?
    Mr. Weber. I asked you first.
    Mr. Butters. I don't have that specific data in front of me 
but--
    Mr. Weber. Okay. Were you all concerned about that 
volatility when the--were you concerned about the employees' 
safety driving that vehicle with gasoline in it with the high 
volatility rate?
    Mr. Butters. Well, keeping in mind that the risk that we 
are addressing is the volume of the product that is moving 
through transportation. A 20-gallon gasoline tank on a vehicle 
doesn't pose the same degree of risk as a 105-car train with 
20,000 gallons of product--
    Mr. Weber. You are making my argument for me. So now we can 
come back full circle and say that a pipeline is a safer way of 
moving that than a train.
    Mr. Butters. The question--Congressman, the question you 
asked is if a vehicle carrying gasoline is riskier than a 
train.
    Mr. Weber. And--
    Mr. Butters. That was the question.
    Mr. Weber. So you can compare those two risks and now you 
would also have to say that a pipeline with a 99.9 percent 
safety rating would be safer than a train. Do you know of any 
people in Canada, the 40 or so that was killed by rail accident 
here a year or so back? Do you know of any that will kill like 
that by pipeline with Bakken shale oil? Answer, no. So one 
could deduct at least in the short term that it is safer.
    Madam Chair, I yield back.
    Chairwoman Lummis. All right. The gentleman yields back.
    The Chair recognizes the gentleman from Oklahoma, Mr. 
Bridenstine.
    Mr. Bridenstine. Thank you, Madam Chair.
    I just wanted to ask a question about the thickness of the 
walls of the tank where your proposed rule is moving from 7/16 
of an inch up to 9/16 of an inch. Do you have any analysis on 
the economic impact or what that is going to cost the industry 
to move from 7/16 to 9/16 of an inch?
    Mr. Butters. Thank you for that question, Congressman. 
Because the rulemaking is currently in the process, I can't 
really respond to those specific types of questions. The 
rulemaking does address the issue of tank car thickness in 
terms of a number of different options, so we are looking 
forward to the comment period closing at the end of September 
so we can evaluate the next step in terms of that rulemaking.
    Mr. Bridenstine. So when you get that comment period, are 
you going to take it seriously?
    Mr. Butters. Of course.
    Mr. Bridenstine. Because yesterday I met with the American 
Fuel and Petrochemical Manufacturers. They said that they 
studied over 1,000 samples of Bakken crude and analyzed the 
data on your behalf at your request. The data points to Bakken 
crude were similar in characteristic to light crude extracted 
from other plays into the United States and the risks 
associated are fundamentally the same as well according to 
their study. And again, they spent their own money, their own 
time, their own effort developing thousands of samples that 
they tested.
    Your proposed rule regarding oil by rail proceeded to 
ignore those findings and the science behind it and claims 
Bakken crude specifically to be inherently more dangerous. Can 
you see why people would look at this and think it is, you 
know, agenda-driven? Do you see why--like if you are requesting 
the information and then you are ignoring the information and 
going ahead with rules that don't take into account the science 
that they provided, do you see why some folks--my constituents, 
for example--might perceive it to be agenda-driven?
    Mr. Butters. Well, I will--I would say this, is that as 
part of the comment period for this rulemaking, which 
includes--again, this is a comprehensive approach to rail 
safety. It addresses prevention and, quite frankly, I think 
that is what--where the priority needs to be is preventing 
these incidents from occurring in the first place, so 
addressing prevention, mitigation, which is--addresses the 
safety and the strength of the railcar that is used to carry 
this product, as well as emergency preparedness and response. 
And it is part of--we welcome comments and input from the 
industry in terms of the products that will be carried in these 
cars and what those specifications need to be.
    Mr. Bridenstine. So when we move potentially from 7/16 of 
an inch to 9/16 of an inch, do you have any assessments on how 
much time that requirement might take?
    Mr. Butters. How much time?
    Mr. Bridenstine. Yeah, is it going to be one year, two 
year, three year, four year. When--how long are they going to 
have to make that transition?
    Mr. Butters. Well, that is part of our seeking comments 
from the industry, from the public, from anyone, and what--
    Mr. Bridenstine. So right now you are open. You haven't put 
a time on it as 3 years?
    Mr. Butters. We had--there is a number of proposals in the 
proposed rule that address time frame, and part of the--our 
desire is to hear back and get comment from those regulated 
entities and others that are affected by this proposed rule as 
to what the impact will be.
    Mr. Bridenstine. Apart from the costs associated with the 
tank cars, are you considering any modifications to the rail 
itself?
    Mr. Butters. Rail integrity is part of that proposed rule 
as well.
    Mr. Bridenstine. And as all of these costs are added up, do 
you see how this is going to increase the cost of energy for my 
constituents?
    Mr. Butters. As part of any rulemaking, Congressman, we--
agencies are required to go through a cost-benefit analysis of 
any proposed rule. That is--was part of the process that was 
done for this Notice of Proposed Rule as well and we will 
continue to look for--ask for comments on cost impact of the 
proposed regulation.
    Mr. Bridenstine. Okay. One specific cost impact that I 
think is important--and I am running out of time here--is the 
impact on crude transportation out of North Dakota. 
Specifically, that is what I am interested in, the cost of 
crude coming out of North Dakota.
    And with that, Madam Chair, I will yield back.
    Mr. Broun. [Presiding] Thank you.
    Mr. Bridenstine. I apologize for calling you Madam Chair. 
You were a Madam until just a few minutes ago.
    Mr. Broun. No, sir, I have never been a Madam or anywhere 
close, but thank you. My Navy colleague, my sailor colleague, I 
appreciate that.
    I have got a unanimous consent request that we allow Mr. 
Rohrabacher to participate as if he is a member and ask 
unanimous consent request that we allow him to ask questions 
for five minutes.
    Mr. Swalwell. No objection.
    Mr. Broun. Okay. Having said that, Mr. Rohrabacher--
    Mr. Swalwell. I am sure I say that at my own peril though.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you to the Ranking Member as well for permitting me the 
opportunity to participate. I was here a little late and I 
didn't catch every detail of what you were announcing today, 
but we are--how do you say? It is very clear that people on 
this side of the aisle at least are very--not skeptical but we 
are hesitant to just accept that this Administration is moving 
forward in an open manner in discussing what and why they are 
trying to do. Frankly, it is--most of us believe and--on the 
side of the aisle that social engineering goals are being 
accomplished by this Administration by using regulatory powers 
that government has been given, and that is not what those 
regulatory powers were all about.
    Now, in this case we have--you know, there is--you know, we 
have heard in the past with a--that people in other industries 
talk about foot-dragging and harassment, of producers' double 
standards of enforcement, for example, by different regulatory 
units on things that just don't go along with the basic goals 
of what the Administration wants to accomplish in their social 
and economic agenda.
    I won't have to say, and I don't say this in a hateful, 
mean way, but Mr. Butters, your inability to what seems to me--
I am setting off to the side. Your inability to answer directly 
these questions, will you confirm for us that there is game-
playing going on and that you just won't answer anything that 
in any way could reflect badly on this whole idea of that--of 
what your agency is trying to do because the agency may be 
involved in a play based on global warming theory trying to 
again suppress the usage and use and availability of fossil 
fuels and letting that be in the background forcing situations 
and forcing people like you to have to go through those verbal 
acrobatics not to answer a question? Please feel free to 
comment on it. And I am not impugning your integrity.
    Mr. Butters. I understand that and I appreciate your 
comments, Congressman.
    DOT and PHMSA is a safety agency. That is our role. Energy 
and hazardous materials are critical to this nation's economy. 
I mentioned that. We strongly support that and we believe that, 
but our role is to ensure that this energy is moving safely 
through transportation. These crude oil lines that carry these 
large volume of flammable crude oil, which this material is, we 
need to ensure that it moves and gets to its destination 
without incident. That is our role and we are going to--want to 
address the risks associated with that and that is what we are 
doing and to better understand this material so it is properly 
classified that-
    Mr. Rohrabacher. Okay. Well, let me accept that that is 
what the stated goal is. And again, what makes us weary of 
having that used as perhaps a faacade to obtain what we clearly 
have as a goal of this Administration, which is to reduce 
America's use of fossil fuel, even though it is now being 
presented to us as something about safety, let me ask you this: 
As compared to the loss of life and lack of safety in obtaining 
oil from offshore oil sources or the loss of life or lack of 
safety in coal-fired plants, the digging of coal and how to--
coal plants and the transportation of coal, nuclear power--have 
there ever been any deaths caused from nuclear power? Is there 
any risk of nuclear power? And of course what about tanker-
delivered oil from overseas?
    Now, when you compare all of those to the amount of risk 
that could be--that we could face from getting our oil 
domestically from the--from North Dakota, why did you pick 
North Dakota to focus on your time and effort and resources on 
rather than all of these others? Aren't these others more 
dangerous than what has been going on in North Dakota?
    Mr. Butters. Well, first off, I am going to defer the first 
part of your question to my colleague Mr. Smith from DOE. He is 
probably in a better position to respond to that.
    But again, to just reinforce the role of DOT in this arena 
is to ensure the transportation of energy and hazardous 
materials is done in a safe manner. There are a wide range of 
systems out there, of movements, and they all have a different 
level of risk.
    The Bakken Shale oil issue, the reason that PHMSA and DOT 
is focused on it is because of the volume of product that is 
moving out of that area by rail. The incidents in--that have 
occurred and Castleton, North Dakota; Lac-Meegantic in Queebec; 
Aliceville, Alabama; most recently in Lynchburg, Virginia, I 
went down to the incident scene on that derailment. This 
material poses a risk and we want to make sure that it moves 
safely. We are not trying to restrict the movement. We want to 
make sure it moves safely. That is our role.
    Mr. Broun. The gentleman's time is expired. I appreciate 
the colleagues in allowing Mr. Rohrabacher to speak.
    And I will now ask unanimous consent to recognize Mr. 
Cramer for two additional minutes, realizing that--and this 
will be our last question of you guys. We have got votes in 
about 40, 45 minutes, so we are going to have to go to the 
second panel.
    Very quickly, Mr. Cramer, you are recognized.
    Mr. Cramer. Thank you.
    Mr. Broun. Unless I hear objection. No objection?
    Mr. Cramer. Thank you, Mr. Swalwell and Mr. Chairman.
    We have been talking about the issue but we haven't really 
talked about the two specific reports or at least named them. 
Of course there is the PHMSA report we referenced, but in a 
little bit we are going to have the second panel and we are 
going to have somebody from Turner Mason, and I just wanted to 
get some sort of a general statement from one or both of you. 
Did you see anything in the Turner Mason report that you found 
disagreement with or--because I know you relied on it. I have 
seen comments from time to time. But I am really interested 
frankly in reconciling if there are any differences and 
certainly in highlighting consistencies between the two, so if 
I could just get each of you to give a short comment on the 
Turner Mason report and your assessment of it.
    Mr. Smith. Well, thank you for the question, Congressman.
    So I think it highlights that there are some uncertainties 
here. I mean this is an area of new study. When you go from 
70,000 barrels per day to 700,000 barrels a day, you are in new 
waters in terms of risk and understanding the risks around 
complex systems. So PHMSA's job is to make sure that these 
things are moved by rail safely and there isn't a tremendous 
amount of research and development on the very complex question 
of the relationship between volatility, vapor pressure, 
ignitability, and flammability into the real world in which you 
have crude actually traveling in cars.
    I think that is probably what these different studies 
highlight is that there are things that we know, things that we 
understand about the chemical compositions of these different 
types of crude. But there are some practical matters that we 
don't understand yet because we simply haven't had the 
necessity to do that research and development until now. So 
that is what the DOE brought out.
    Mr. Cramer. Thank you, Mr. Smith. Mr. Butters, just in the 
remaining seconds?
    Mr. Butters. Certainly. In our review of those studies, 
their data is consistent with ours in terms of the flammability 
of this product and the need to ensure that it is again 
packaged properly, it is communicated properly before it is 
offered for transportation. It is a flammable--highly flammable 
liquid and their data that they published is generally 
consistent with the data that we have found as well.
    Mr. Cramer. Thank you. I yield back.
    Mr. Broun. I want to thank the witnesses for you all's 
testimony here today and I thank the members for your 
questions. The members of this committee may have additional 
questions of you two guys and we ask that you respond to those 
questions in writing, and please do it so very expeditiously. 
The record will remain open for a very short period of time, so 
if you all would respond. And if you want to flesh out anymore 
of the answers that you already gave to the oral questions, I 
encourage you to do so.
    The witnesses are excused and I now call up the second 
panel of witnesses. And while we are doing so, I just want to 
tell my friend Dan Maffei that I was frustrated with the lack 
of answers and the words I utilized to indicate the 
filibustering and maybe I should have used that word better. I 
certainly didn't want to cause any hard feelings. But the thing 
is, we did ask for scientific technical witnesses and we were 
sent political witnesses by the Administration. And we could 
have, I think, had good answers from a scientific perspective. 
So if the second panel will please take your--
    Mr. Maffei. Would the Chairman yield?
    Mr. Broun. Certainly.
    Mr. Maffei. Just in response. Yeah--no, look, first of all, 
as I just mentioned, I do believe that that the Chairman, if 
your--if the Administration is not supplying the witnesses that 
you request, should inform you exactly why they are not and why 
some other witness would be more qualified. I fully respect 
that. And all I was really trying to do was just make sure that 
at least in my view that these two witnesses were, you know, 
providing good information to the best of their ability and 
were not trying to avoid the question in my view again. So that 
is all I was interested in.
    Mr. Broun. Well, I would agree with my colleague. I think 
they were trying to but the problem is that the Administration 
didn't supply us proper witnesses to answer scientific 
question. Just from a scientific perspective, we can measure 
volatility. They couldn't answer that question. We can 
scientifically measure flammability and those types of things 
and they were just not prepared because they just didn't have 
that expertise and the Administration refused to give us the 
proper witnesses.
    Now it is time to introduce our second panel of witnesses. 
First is Ms. Kari Cutting, Vice President of the North Dakota 
Petroleum Council. Ms. Cutting brings over 30 years of 
experience in the North Dakota energy industry, and looking at 
her, she started very young at that--in that perspective. 
Previously, she has served as a Project Logistics Manager at 
the Dakota Gasification Company. The North Dakota Petroleum 
Council promotes environmentally responsible oil exploration 
and development, and we are all, on Republican as well as the 
Democrat side, believe that we have got to be good stewards of 
our environment. And you all audit and respond to oil and 
natural gas development impacts.
    Our second witness is Mr. John Auers, Executive Vice 
President at Turner, Mason & Company, an international energy 
consulting firm. Mr. Auers leads assignments in the area of 
refining economics and planning, modeling, downstream asset 
valuation, crude oil valuation, and capital investment and 
strategic planning. Previously, he worked with Exxon 
Corporation.
    And our final witness today is Mark--you want to pronounce 
it for me, please?
    Mr. Zoanetti. Zoanetti.
    Mr. Broun. Zoanetti, okay. Zoanetti. My family can't spell 
or pronounce this Broun but it is spelled with a U. So 
Zoanetti, Deputy Chief of Special Operations, Syracuse Fire 
Department. His current role--in his current role Mr. Zoanetti 
is responsible for oversight at the--of the hazmat airport and 
the urban search and rescue components of the fire department. 
Mr. Zoanetti has been a member of the Syracuse Fire Department 
for 29 years. He has received certification as a hazardous 
materials technician, as well as other state and federal 
training courses and hazardous materials. Mr. Zoanetti is also 
the Deputy Coordinator for the--you want to tell me what 
county? I don't know how to pronounce that, too, so--
    Mr. Zoanetti. Onondaga.
    Mr. Broun. Say--
    Mr. Zoanetti. Onondaga.
    Mr. Broun. Onondaga, okay, County Department of Energy 
Management.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which members of the committee have 
five minutes each to ask questions. Your written testimony will 
be included in the record of the hearing.
    Now, please, we have votes probably in 30 minutes now, 35 
minutes, so if you can chop down to the time that you gave your 
oral testimony, and, Members, let's try to keep our questions 
as concise as we can so that we can get through this before 
votes.
    It is the practice of Subcommittee on Oversight, which I 
chair, to receive testimony under oath. If you all would now 
please stand and raise your right hand.
    Do you solemnly swear or affirm to tell the whole truth and 
nothing but the truth, so help you God?
    Zoanetti? Okay. I didn't hear you Mr. Zoanetti. Please be 
seated.
    Let the record reflect that all the witnesses participating 
have taken the oath.
    I now recognize our first witness, Ms. Cutting, for five 
minutes.

                 TESTIMONY OF MS. KARI CUTTING,

                        VICE PRESIDENT,

                 NORTH DAKOTA PETROLEUM COUNCIL

    Ms. Cutting. Chairman Broun, Ranking Members Swalwell and 
Maffei, thank you for the opportunity to testify today on 
Bakken petroleum, a substance of energy independence.
    The North Dakota Petroleum Council represents over 530 
companies engaged in all aspects of oil and gas activity in 
North Dakota, South Dakota, and the Rocky Mount region. NDPC 
members produce 98 percent of all oil and gas in North Dakota.
    The State of North Dakota is one of the only States with a 
multi-resource comprehensive energy policy. North Dakota is 
proactive and aggressive in addressing energy development and 
serves as a model for America in fostering innovation and long-
term energy development to meet our nation's growing demand and 
need for energy security in an environmentally responsible 
manner.
    North Dakota is now the second-largest oil-producing State 
in the Nation, reaching 1 million barrels of daily production 
in a 2014, up from 100,000 barrels in 2007. The industry has 
almost 11,000 producing oil wells, employs tens of thousands of 
direct and indirect jobs, has a $30 billion economic impact, 
and contributes $11 million per day to our state and political 
subdivision and oil reduction taxes.
    The States of Texas and North Dakota combined produce 
nearly half of the crude oil produced in the United States and 
increased domestic production has helped stabilize energy 
prices despite turmoil overseas. In fact, this new domestic 
energy production has reduced imports by 4.4 million barrels 
per day since 2005. Imports from Saudi Arabia are down 25.3 
percent while imports from Venezuela are down 47.8 percent. 
Because of shale oil and gas, North American energy security is 
now achievable and North Dakota is very proud of its role in 
this progress.
    Although North Dakota oil and gas production has grown 
substantially in recent years, pipeline capacity to key markets 
has not, requiring 59 percent of the Bakken crude to be hauled 
via rail in June. Since the increase of crude being transported 
by rail, there have been eight railway incidences involving 
crude oil that have raised questions as to the chemical 
characteristics of Bakken crude, how it compares with other 
flammable liquids under U.S. Department of Transportation 
regulation, and whether it can be safely transported across 
North America under the current regulatory environment as 
enforced by the Pipeline and Hazardous Materials Safety 
Administration.
    Three independent studies have now shown that Bakken crude 
is similar to other North American light sweet crude oils in 
gravity, vapor pressure, flashpoint, and initial boiling point, 
which are the key parameters in proper classification. 
According to these studies, Bakken crude oil chemical 
properties attest to its proper classification as a Class 3 
flammable liquid. This category contains most of the valuable 
fuels and fuel feed stocks offered for transportation in the 
United States.
    One of the studies was commissioned by the North Dakota 
Petroleum Council to answer questions raised about the chemical 
properties and transportation safety of Bakken crude oil. The 
study included a comprehensive and--comprehensive sampling and 
analysis plan and was conducted by Turner, Mason & Company, an 
internationally known and recognized group of engineering 
consultants with extensive crude oil expertise, at a 
significant cost.
    The oil and gas industry in North Dakota has a very strong 
safety culture focused on zero incidences. All incidences large 
and small generate a safety investigation to determine the root 
cause of the safety incident. Procedural changes or additional 
safety measures are implemented to mitigate the root cause and 
prevent a recurrence of a similar incident. This is true 
whether the incident occurs during a drilling, completions, 
reduction, or transportation aspects of the industry's 
activities. Commissioning of the Turner Mason study is an 
example of the industry's desire to investigate safety 
incidences.
    The Turner, Mason & Company study was designed to provide 
scientific answers to address the growing perception that light 
crude oil is more hazardous than other flammable liquid or 
hazardous materials being transported in the United States. The 
results of the study do not support the speculation that Bakken 
crude in particular is more volatile than other crude oils or 
other flammable liquids.
    There are nine classes of hazardous materials transported 
by truck, rail, ship, and cargo air in the United States. 
Material from all nine hazardous materials classes are 
transported safely every day in this country millions of times 
a year. Those who offer hazardous materials for shipment must 
be certified and are required to properly classify the material 
being offered for transportation.
    All classes of hazardous materials transported by rail 
arrived safely at destination greater than 99.997 percent of 
the time. The efforts of all stakeholders, including PHMSA, the 
oil and gas industry, tank car builders and owners, the 
railroads, and the State of North Dakota are focused on 
affecting an incremental safety improvement for the remaining 
0.003 percent incidences.
    In conclusion, safety always has and continues to be a core 
value of the oil and gas industry. The NDPC and its members 
believe rail safety improvements must be developed using a 
holistic, comprehensive, and systematic approach that examines 
prevention, mitigation, and response. Safety solutions must be 
data-driven and produce measurable improvements to safety 
without creating new risks or inadvertently shifting the risks 
to other businesses or operations. To achieve this, 
collaboration is needed among government, shippers, railroads, 
and tank car builders.
    All stakeholders recognize the important of implementing 
additional safety measures to reduce the probability of the 
remaining 0.003 percent. Efforts to improve safety of the rail 
car, routing analysis, infrastructure inspection and 
enhancements, as well as additional training and information 
for emergency management personnel, are all efforts being 
addressed. The oil and gas industry, it partnership with the 
railroads, is working to develop a common educational tool to 
be distributed broadly to fire departments either through web 
portal or DVDs. This information will also be available for 
companies to use in continued interaction with fire departments 
and other EMS personnel. Rail and oil industries in many States 
have worked collaboratively on drills and exercises, 
development of additional response resources, and periodic 
meeting to keep the lines of communication open to maximize 
information sharing of the latest data on emergency response 
for these type of incidences.
    We look forward to continuing this work with the state and 
federal leaders to enhance safety and bringing this product to 
market and ensuring our State can continue to improve energy 
security by providing a reliable energy resource for our 
nation.
    Thank you very much for allowing me to testify. I will be 
happy to answer-
    [The prepared statement of Ms. Cutting follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Broun. Thank you, Ms. Cutting.
    Mr. Auers, you are recognized for five minutes.
    And again, I want to reiterate we are pressed because of 
votes so if you all could try to get--we are going to get 
through with this questioning as quickly as we can, too, so if 
you could make sure they stay within the five minutes, I 
appreciate it.

                  TESTIMONY OF MR. JOHN AUERS,

                   EXECUTIVE VICE PRESIDENT,

                    TURNER, MASON, & COMPANY

    Mr. Auers. Okay. I want to first express my thanks to 
Chairman Broun, Ranking Member Swalwell and Maffei, and all the 
members of the Energy and Oversight Subcommittees for your time 
and attention.
    As a result of several high profile rail incidents, 
questions as to whether Bakken is materially different from 
other crude oils and if the current railroad materials 
classification is appropriate have been raised. To answer these 
questions, the North Dakota Petroleum Council commissioned 
Turner, Mason & Company to conduct a comprehensive sampling and 
testing program. One hundred and fifty-two samples were taken 
over a four-week period from seven rail terminals and 15 well 
sites. The crude producers that provided the well samples 
account for 50 percent of the total North Dakota production and 
the rail facilities sampled represent a similar proportion of 
the total North Dakota crude-by-rail capacity.
    The sampling locations covered the entire producing region 
and include those old and new wells, getting good 
representation of any property variation as a result from 
geography, production rate, or during processing and transit. I 
believe this program is the most thorough and comprehensive 
study of crude quality from a title production basin to date.
    The results of this study are being used to establish a 
bottom quality baseline and to ensure continued crude quality 
and consistency. The study was also used to evaluate the impact 
of field operating conditions on Bakken qualities. These study 
results, together with followup effort, will be used to 
establish management best practices for operating field 
production equipment to best meet the proposed quality 
specifications.
    Our study confirmed that Bakken crude is a light sweet 
crude oil with an API gravity generally between 40 degrees and 
43 degrees and a sulfur content less than 0.28 percent. As 
such, it is similar to many other light sweet crude oils 
produced and transported in the United States and falls in the 
middle of the range defined by the Energy Information 
Administration for that category. Overall, over 60 percent of 
the crude produced in the United States falls into this or 
wider categories representing over five million barrels per 
day.
    During our sampling program, Bakken had an average vapor 
pressure between 11.5 and 11.8 psi with 90 percent of the well 
samples and all of the rail samples measuring below 13 psi. 
This means Bakken is more than 60 percent below the 43.5 vapor 
pressures threshold for liquids under the Hazardous Materials 
regulation and almost 90 percent below the 100 psi rating that 
the railcars use for transport.
    Because of the dearth of consistent data for other crudes, 
comparisons are difficult. The data that is available show 
Bakken vapor pressure to be within 2 to 3 psi of other light 
sweet crude oils with some lower but most other tight oils 
higher. While sampling occurred during a shoulder period, data 
outside that period provided by an NDPC member company showed 
some seasonality in vapor pressure with summer results 
averaging about 3 psi lower than those in the winter.
    The light ends content, as defined by C2's through C4's, 
average just below 5.5 liquid volume percent for all the 
samples and under five percent for the rail samples. This is 
generally within one to two percent of most other light crudes 
with some showing lower levels and others having more light 
ends.
    The flashpoint of Bakken measured below 73 degrees 
Fahrenheit, initial boiling point generally averaged between 95 
degrees Fahrenheit and 100 degrees Fahrenheit, both of which 
are a normal range for light crude oil. The data supports the 
current Department of Transportation and Pipeline and Hazardous 
Materials Safety Administration classification for Bakken crude 
as a Class 3 flammable liquid which is similar to other crude 
oils, as well as gasoline, ethanol, and other materials 
containing light components. As a result, Bakken crude oil 
meets all specifications for transport using existing DOT 111 
tank cars.
    Flammable liquids fall into packing groups depending on the 
IVP as defined by the ASTM D86 method. Our results show some 
variability, especially on samples tested by different labs. 
This is because D86 was not developed for wide-boiling range of 
materials like crude oil. The difficulty with achieving 
consistent IVP results between different labs, other groups are 
working on recommendations for an alternative approach to 
determine packing group classification with a goal of obtaining 
DOT approval.
    Based upon the findings of our study, the NDPC has decided 
to encourage all members to classify their Bakken crude as a 
Class 3, Packing Group 1 flammable liquid until more definitive 
testing protocol is established. It is critical to note the 
determination of Packing Group 1 versus Packing Group 2 has no 
impact on the type of rail car used or on first responder 
response to an incident. It had no impact on any of the 
incidents in which Bakken was involved.
    We found that the qualities of Bakken were very consistent 
in our sample population and throughout the supply chain from 
wellhead to rail terminal to refining destination. Test results 
showed no evidence of spikes in natural gas leakage before a 
rail shipment. Due to the fact that crude from a number of 
wells is aggregated, samples taken at the rail terminal should 
have less variation and tighter averages than well readings. 
The test results from the study are also consistent with the 
recorded result of others, including the American Fuel & 
Petrochemical Manufacturers' Bakken report, the PHMSA Operation 
Safe Delivery report, NDPC member-gathered data, and other 
recent studies and presentations on the quality of Bakken crude 
oil.
    The accuracy and precision of our test program was ratified 
by a series of round robin tests between both the SGS 
laboratories used in our study and Intertek, the testing 
company used by PHMSA in their study. The results of the round 
robin testing showed excellent agreement on API gravity in 
vapor pressure. Significant variation did occur in the measured 
IVP from D86 testing due to the issues I mentioned earlier.
    While the test results from PHMSA's report agree closely 
with the NDPC results, PHMSA did make some assertions in their 
executive summary which do not appear to be supported by their 
study or our findings. First, the PHMSA report makes a 
statement that ``we conclude that while this product does not 
demonstrate the characteristics of a flammable gas, corrosive 
liquid, or toxic material, it is more volatile than most other 
types of crude.'' No comparative data was provided in the 
report to support this statement.
    Second, PHMSA also claims that a higher degree of 
volatility correlates with increased ignitability and 
flammability. Again, no support is provided for this statement 
in the report. While we are aware that some groups are studying 
this very complex subject, we are not aware of any final 
conclusions from those studies to date.
    I have submitted a separate written testimony which 
provides more detail and results from our study and our 
complete report is available on the NDPC website. With that, I 
conclude my prepared remarks and-
    [The prepared statement of Mr. Auers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Broun. Thank you, Mr. Auers.
    Mr. Zoanetti, you are recognized for five minutes.

                TESTIMONY OF MR. MARK ZOANETTI,

              DEPUTY CHIEF OF SPECIAL OPERATIONS,

                    SYRACUSE FIRE DEPARTMENT

    Mr. Zoanetti. Good afternoon, Chairman Broun, Ranking 
Members Swalwell and Maffei--
    Mr. Broun. Please turn on your microphone. Is the red light 
on there? Speak and so you--
    Mr. Zoanetti. Good afternoon, Chairman Broun, Ranking 
Members--
    Mr. Broun. No, that is not--could somebody help him get his 
microphone on, please? Mr.--maybe you could use Mr. Auers' 
microphone.
    Mr. Zoanetti. Good afternoon, Chairman Broun, Ranking 
Members Swalwell and Maffei, of the Energy and Oversight 
Committee. I am here on behalf of the City of Syracuse at the 
request of Congressman Maffei. I want to thank you for allowing 
me to share my experience in dealing with hazardous materials 
and rail transportation and the challenges that first 
responders face on a daily basis.
    As a joint effort between the Syracuse Fire Department and 
the Onondaga County Department of Emergency Management, we 
contacted CSX for information about Bakken oil. Initially, 
shipment information was not made available. With persistent 
pressure from state and federal--and local government, CSX 
agreed to meet with the Syracuse Fire Department to discuss the 
movement of Bakken oil. In the meeting we received information 
about shipments and hazards associated with Bakken oil. We were 
able to establish a dialogue with CSX that eventually brought 
educational resources to first responders.
    With information about the light sweet crude, we made a 
hazard assessment to determine what if any gaps existed in our 
response plans to an accident involving Bakken crude trains. It 
was determined that additional training and planning were two 
key components in dealing with this hazard.
    Because of what we were--believed to be the lower ignition 
temperature of the crude as compared to other crude shipments, 
the hazard has increased. In reviewing incidents in Queebec and 
North Dakota and information from several resources we 
recognized the hazard of transportation of Bakken crude. We 
were advised that the rail lines that run along the northern 
border of our city and are being utilized for the movement of 
this product. CSX lines border Onondaga Lake at the 
southernmost end and is adjacent to Destiny USA, a large 
shopping and entertainment center. The rail proceeds past the 
William F. Walsh Regional Transportation Center, a minor-league 
ballpark, and a light industrial area. Once out of the city's 
jurisdiction, the trains move to an East Syracuse rail yard, a 
village on the eastern border of the city.
    Following the issuance of an emergency order from the U.S. 
Department of Transportation that required railroads--railroad 
carriers to release information in writing to state emergency 
response centers in each State in which the rail carriers 
transporting more than--transporting one million gallons or 
more of Bakken crude, CSX disseminated information of 
commodities transported through central New York.
    The data from the 2013 Hazardous Materials Density Study in 
Onondaga County reported the number of carloads and percentage 
of total hazardous materials as transported through our County. 
The Bakken crude compromised--comprised the greatest share of 
haz materials transported at 34 percent of the total. We found 
that many other hazardous materials were transported through 
the city, which we have known for a long time that these 
commodities move through the city, but were unaware of the 
amounts. There are large quantities of liquefied petroleum gas, 
sulfuric acid, propane, chlorine, and ethanol to name a few. 
There are shorter rail lines besides CSX that traverse through 
downtown Syracuse and move tank and bulk products.
    The Bakken crude is moved through central New York by rail 
every day. There are two trains that daily traverse Syracuse at 
approximately 100 tank cars in each train. When a concern--the 
concerned for potential hazard of this commodity were brought--
was brought to light that these trains were in our community, 
we had little information about shipment outside of media 
reports.
    With information in hand, we determined a course of action. 
Training became the next step in our progression. A training 
program supplied by CSX was presented to our members that 
contained the DVD lessons that matched a workbook in dealing 
with rail emergencies. After completion of these lessons, CSX 
brought their safety training program into Syracuse for some 
hands-on training in working with DOT 111 tank cars. A total of 
60 members of the Syracuse Fire Department attended this hands-
on training. Those members are assigned to stations that 
respond to the rail incident should a Bakken crude train have 
an incident. Participants in this training include our 
hazardous material unit where the balance of our department is 
going to receive awareness training in rail incidents.
    From the perspective of the Syracuse Fire Department, 
Bakken crude trains do not present the only challenge for first 
responders. The vast array of other hazardous materials that 
move through our jurisdiction require us to be prepared for all 
hazards. The Syracuse Fire Department hazardous material team 
must train and equip to deal with whatever emergency might come 
our way besides establishing procedures for dealing with Bakken 
train trains at present. However, I am confident we are 
prepared to respond should an incident happen. Because of the 
potential for a transportation accident, we train to meet all 
hazards. The Syracuse Fire Department is also working with the 
Local Emergency Planning Committee to help protect the public 
from an incident.
    In November of 2011, a train derailed in a residential area 
of the city of Syracuse. Several tank trains and bulk hopper 
cars derailed. The tank car carrying non-odorized propane was 
our biggest hazard. Because of the potential hazard, we 
evacuated approximately 100 home. This also caused the closure 
of a main highway, Route Interstate 81. The origin of the 
incident was determined to be a bad section of track. The 
deficient track was identified in July and--of that year and 
was not repaired. The section of track that caused the 
derailment was in the middle of the city causing the cars to be 
dragged up to one mile further before overturning. Fortunately, 
there was not a release of propane and the cars were eventually 
righted without further incident.
    The city and the county have created a stockpile of 
firefighting foam and are acquiring appliances to deliver the 
foam at an incident. Additionally, with the production of an 
ethanol plant in the nearby city of Fulton, we are finding 
large quantities of ethanol being transported through central 
New York.
    The hazardous materials team of the Syracuse Fire 
Department is comprised of 36 highly trained hazmat 
technicians. All members meet or exceed the standards for 
training set forth by CFR 29 1910.120 and NFPA 472. All hazmat 
officers as well as chief officers of the Syracuse Fire 
Department are trained in Hazardous Materials Incident Command. 
Syracuse Fire Department hazmat team is a regional response 
team for a three-county area in central New York. We are a FEMA 
Type I team, the only team in our region. We have responded 
outside of our area in New York State mutual aid assets for 
natural disasters that have affected the State.
    At a time when increasing demand for emergency services 
is--are becoming more complex, local resources are becoming 
financially strapped very quickly. The assistance from state 
and federal resources and shippers would provide for responder 
training, development of effective response capabilities, and 
planning to be able to safely mitigate an incident and protect 
the public from harm.
    I want to thank you for holding today's meeting about 
transportation of the Bakken petroleum and rail safety. The 
hazards of this product are not unlike others that are--others, 
but because of the volume that is moved across America through 
many small communities, it has created a tremendous concern. 
Should an accident happened similar to the ones that have 
already occurred--excuse me--local resources will be overtaxed 
quickly. To be able to protect the public, emergency response 
agencies need the tools to respond and mitigate accidents. 
Prevention of accidents should the--should also be on the 
forefront of this endeavor whether through engineered controls, 
track maintenance, or product safer transportation.
    I will answer any questions.
    [The prepared statement of Mr. Zoanetti follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Broun. Thank you, Chief. I thank the witnesses for your 
testimony. The Chair will now at this point open the first 
round--well, I guess we only have time for one round of 
questions.
    For Members' information, the last report we got from the 
cloakroom is we are going to have votes somewhere between 4:15 
and 4:30, so just to inform the Members.
    The Chair now recognizes himself for five minutes.
    Ms. Cutting and Mr. Auers, the PHMSA report claims that 
Bakken crude is ``more volatile than most other types of 
crude.'' Is it a fair comparison? Should the report have 
compared it Bakken crude with other light sweet crudes since 
they are in the same category? Is this just stating an obvious 
fact that it is more volatile than just other types of crude?
    Mr. Auers. As our report--
    Mr. Broun. Turn on your mic.
    Mr. Auers. As our report showed, Bakken is very similar to 
other crudes. Again, there is not extensive--the level of data 
on other crudes as there was on Bakken with ourselves, PHMSA, 
and others-
    Mr. Broun. And let me interrupt you because we are real 
tight on time. The question is PHMSA said it is more volatile 
than most other types of crudes. That includes heavy crudes, 
all crudes, and during your testimony you said that it is no 
more volatile than other light crudes if I remember correctly. 
So the question is is it just stating an obvious fact that they 
said that it is more volatile than other types of crudes?
    Mr. Auers. Light crude will generally have more light ends, 
so the answer is yes, it is stating an obvious fact.
    Mr. Broun. Ms. Cutting?
    Ms. Cutting. Bakken crude is a light sweet crude. It is the 
same as other light sweet crudes. When compared to heavier 
crudes, as PHMSA kind of was talking about, it could be 
considered to be lighter, have different composition than real 
heavy crudes, but it is a light sweet crude similar to other 
light sweet crudes.
    Mr. Broun. So you would agree that it is just stating an 
obvious fact in the PHMSA report that light--that Bakken crude 
is more volatile? And I take it from your answers, is that 
correct? Yes or no? I mean that is what we are trying to get 
at.
    Ms. Cutting. There is a different chemical composition 
between a heavy crude and a light crude.
    Mr. Broun. Well--
    Ms. Cutting. We have stated that, right? Because volatility 
is a lot more complex question than we can address--
    Mr. Broun. Well, I agree with that and that is the reason I 
am disappointed that we didn't get the scientific folks from 
DOE and DOT.
    Ms. Cutting and Mr. Auers, you have heard me question the 
first panel about inconsistencies in their characterizations of 
the Bakken crude's ignitability and flammability 
characteristics. What impact does this have on industry when 
regulating agencies such as PHMSA appears to make a more 
incendiary statement about Bakken crude characteristics than a 
scientific agency such as the Department of Energy?
    Ms. Cutting. I think that the real issue here is how the 
public perceives that information when a regulatory body makes 
a comment like that. Of course it causes concern in the public. 
And I think that the other part of the public that becomes very 
concerned is the emergency response people, and because they 
knew how to deal with flammable liquid, and now when they are 
saying this is somehow different, it causes them to go back to 
the drawing board and try to figure out how it is different and 
how they are going to respond.
    Mr. Broun. Mr. Auers, do you want to make any comments?
    Mr. Auers. Yeah, I would agree with that. Again, Bakken is, 
you know, a very typical light crude. It is not an unusual, 
particularly hazardous material and, you know, the public, to 
their credit, wouldn't know the difference but when they hear 
that from an official source, Bakken is something different and 
more dangerous, that, you know, is sort of like screaming fire 
in an elevator, you know, or theater. It is just not something 
you should do. You should base it on facts, and the fact is 
Bakken is a very typical light crude, probably more similar to 
conventional light crude than most other tight oils.
    Mr. Broun. Well, and that is the purpose of this whole 
hearing is PHMSA is recommending that Bakken crude be 
characterized as Class 1 whereas my question about ethanol and 
gasoline, which is Class 2, you are recommending Class 3, and 
this is the reason we are trying to get into the scientific 
aspects of all this. And I thank you all for your testimony.
    I yield now to--I guess Mr. Swalwell is gone so to my good 
friend Dan Maffei.
    Mr. Maffei. Thank you. Thank you, Mr. Chairman. I 
appreciate it.
    Just--I obviously am very, very pleased to have our deputy 
chief from the Syracuse Fire Department down here, and I 
appreciate yourself, the leadership of the Syracuse Fire 
Department and Mayor Miner for letting you come testify.
    I am focused on the safety aspects of this. If there is any 
theme out of this hearing I think it is that this Bakken crude, 
while not necessarily any more dangerous in and of itself than 
any of the other volatile chemicals that we in a modern society 
have and have to transport, it is a much broader volume than it 
has been between 2011, 2012. It went from some 65,000 carloads 
to 257,000 carloads. The first panel was talking about 
basically a tripling--I am sorry, a multiplication by 10 over 
the period when we started doing this, so it is a lot more.
    Mr. Zoanetti--Chief Zoanetti, are you seeing enough 
additional resources to handle that additional risk created not 
by necessarily the quality of this particular material but the 
volume?
    Mr. Zoanetti. Certainly improved training and planning. I 
know that in the other discussions safety features of either 
the railcars and train--track maintenance, things of that 
nature are going to help reduce risk. Resources for emergency 
service first responders is always going to be a need there. We 
need to increase our training capabilities and our capabilities 
to respond to that catastrophic incident that may or may not 
happen. We have to be prepared to be able to meet the needs and 
the people are expecting us to meet those needs.
    Mr. Maffei. Do you feel that you and other local fire 
departments are getting enough information, scientific and 
otherwise, to be able to assess any potential threat that could 
occur if there was a train derailment for instance?
    Mr. Zoanetti. I personally am often looking for information 
and most of the information I have received has not been 
completely scientific. I think I--not that I am a scientist, 
but I--more information would certainly be better. Information 
sharing is to me very critical.
    Mr. Maffei. Mr. Zoanetti, in upstate New York, as you know, 
we have a lot of volunteer fire departments. How does that put 
increased pressure on a professional department like Syracuse 
in terms of its regional leadership?
    Mr. Zoanetti. Well, as I mentioned, we are the only 
hazardous materials team in the central New York region, so 
that responsibility does fall to us. Each volunteer department 
has a home responsibility if it happens in their districts, but 
quite honestly, if something does happen, they are going to be 
requesting our services and looking for us to help them solve 
their problem.
    Mr. Maffei. So the resources you get, even though your 
responsibility is just to the city of Syracuse, you may very 
well use in all sorts of cases in the State should there be 
some sort of incident?
    Mr. Zoanetti. Yes, sir.
    Mr. Maffei. Let me ask you this. Do you feel that there is 
any particular kind of safety provisions on the railcars? This 
has been some point of controversy. Or do you have any--a way 
to assess that or are you, you know, feeling like a--there is 
enough precautions as there already are or are you being asked 
these questions?
    Mr. Zoanetti. Well, I am not an engineer so I really don't 
know about the engineering part of it. I know that my training 
has told me that if an incident happened, I have to respond and 
deal with it to the best of my ability and the engineering part 
comes from some folks other than myself.
    Mr. Maffei. In terms of mitigation, you were talking about 
the various foams used for this kind of hazardous material but 
also other things, liquid petroleum, other kinds of hazards, 
chlorine, et cetera. Is this foam expensive and are there 
varieties of it? Give us a sense of what that is.
    Mr. Zoanetti. The foam is roughly about $50 to $75 a 
gallon. That is foam concentrate. So the cost is definitely 
significant. As I mentioned, we are trying to stockpile a 
certain amount but I am not sure that a catastrophic incident 
we would have enough. We would have to reach out to other 
resources at the state and possibly at the federal level to get 
enough firefighting foam to really accomplish the goals that we 
need to accomplish.
    Mr. Maffei. Has your budget gone up at all given this--
because we have--I think in central New York has also seen 
about the same increase in the number of trains going through.
    Mr. Zoanetti. That has not affected our budget in a 
positive way at all.
    Mr. Maffei. All right. So basically trying to do the same 
with what you had before but with more incidents?
    Mr. Zoanetti. Yes, sir.
    Mr. Maffei. All right. Well, Mr. Chairman, my time is up 
but I would like this committee and other committees to just 
consider the volume of this, not with any--well, let me say 
this, without prejudice to whether the material itself is any 
more volatile or any less volatile but any other industrial 
material or energy source that we have to transport is simply 
that the volume of it requires that we look at ways to make 
sure that emergency departments and first responders do have 
the amount of resources needed to make sure that no minor 
incident or accident becomes a serious incident. And I will 
yield back.
    Mr. Weber. [Presiding] Thank you.
    The gentleman from North Dakota is recognized for five 
minutes.
    Mr. Cramer. Thank you, Mr. Chairman. Thank you, Ranking 
Member.
    I might just say with regard to the Ranking Member's most 
recent statement, I certainly don't disagree with that although 
I do think that Transportation and Infrastructure Committee is 
probably going to take up--and maybe the committee jurisdiction 
on some of those areas, so--but I appreciate-
    Mr. Maffei. I just want to send them our transcript.
    Mr. Cramer. Yeah, very good.
    Mr. Auers, you heard the--did you listen to or watch the 
testimony of the previous panel?
    Mr. Auers. I did.
    Mr. Cramer. And so, again, Chairman Broun previously, much 
like he did with the first panel, started down talking about 
the comparison between refined fuels and light sweet crude. 
With regard to the packing designation of 1 versus 2, 1 being 
more I guess safeguarded versus 2, and yet 1 is the Bakken 
crude and 2 is the ethanol gasoline. Is that a 
mischaracterization, and if so, why?
    Mr. Auers. Well, you know, I am not an expert on packing 
groups necessarily but ethanol is--and--you know, is flammable. 
So is gasoline. And I would--I did listen to the testimony 
earlier. I do believe if I threw a match in Bakken crude oil, 
it would not light. Gasoline and ethanol would. We don't burn 
crude oil on Bunsen burners. You know, we do burn ethanol. It 
wouldn't seem consistent that ethanol is in a less stringent 
packing group than crude oil, same with gasoline.
    Mr. Cramer. Thank you. Because this gets to my concern 
about a calming scientific approach versus a sort of hysterical 
approach if you want to know the truth because when we start 
packing and considering crude oil to be as flammable, as 
volatile as refined product--and then--and let me ask you this. 
I was somewhat personally confused by the end of the 
discussion--it wasn't a discussion; it was a question and it 
was an answer. Did you hear one of the witnesses say that 
because it is refined, somehow it--ethanol and gasoline should 
be safer? I mean because that didn't make sense to me or did I 
mishear it?
    Mr. Auers. Yeah, I mean there is no--I don't see any basis 
for that. I mean, you know, gasoline is a refined product. I 
don't think of ethanol as a refined product. It is a--
    Mr. Cramer. Sure.
    Mr. Auers. It is a pure component. Another thing about 
ethanol that, you know, the issue has been brought up is 
whether the volatility makes something more ignitable or 
flammable, and volatility--I don't really use that term. 
Volatility can't be measured. It is a--you know, most people 
when they talk about volatility they talk about a variety of 
different physical and chemical metrics that can be measured 
like IVP--
    Mr. Cramer. Um-hum.
    Mr. Auers. --like flashpoint, which are in the packing 
regulation, and also vapor pressure and light ends contents. In 
the case of ethanol it actually isn't volatile by those 
measures; it has actually got a very low vapor pressure, but it 
is only 2.3 psi.
    Mr. Cramer. Sure. Help me maybe better understand that 
then. Is there a linear relationship between all of these 
things that leads to volatility or is there something more 
dynamic that we should be considering?
    Mr. Auers. Well, again, the term volatility is defined by 
different people different ways so I don't tend to--
    Mr. Cramer. Sure.
    Mr. Auers. --use that term. We in the refining industry 
sometimes will directly talk about volatility directly as vapor 
pressure, but we are not talking about something that is more 
subject to being--to flammability. It is just the fact that it 
has a higher vapor pressure. And vapor pressure--and as I 
mentioned in my prepared testimony, there are no direct 
correlations between all of these metrics and ignitability and 
combustibility. And there are groups studying that. It is a 
very complex issue and there aren't any firm answers on that 
yet on what leads to--but certainly not a straight-line 
correlation. As I mentioned, ethanol has a very low vapor 
pressure but it is extremely flammable and ignitable.
    Mr. Cramer. And I do think--and I appreciate that all of 
the witnesses have said there needs to be further study and we 
are in sort of new territory. You clearly have done the most it 
seems at this point.
    Also then in fairness could you sort of characterize for us 
in the few seconds you have remaining the Turner Mason study? 
And I don't want to say versus but compared to the PHMSA study, 
are there some stark differences or are they largely similar?
    Mr. Auers. The results are extremely similar in terms of 
the testing. What we found when we compared their results to 
our results, they were very close. I heard Director Butters 
confirm that as well. The differences are in the conclusions. 
They do two conclusions that we don't think were supported by 
any data that either they had or we have seen.
    Mr. Cramer. My time is expired. Thank you, Mr. Chairman. 
Thank you.
    Mr. Weber. Thank you.
    Mr. Veasey, I believe you are up next or--Paul Broun 
recognized you, didn't he, Mr. Maffei?
    Mr. Maffei. Yep.
    Mr. Weber. Yeah, good.
    The gentleman from Texas.
    Mr. Veasey. Thank you, Mr. Weber. I appreciate that.
    I want to ask either Ms. Cutting or Mr. Auers about an 
article that was in the Wall Street Journal earlier this year 
that analyzed data from Capline Pipeline. I am not sure if you 
are familiar with the company Capline Pipeline in Louisiana, 
but it tested crude from about 86 locations worldwide for--to 
measure vapor pressure, and it--and from what they found 
according to this article was that the light sweet crude from 
the Bakken had a higher vapor pressure than crude from dozens 
of other locations around the world. And I just wanted to ask 
you, like one of the companies in here, for instance, Tesoro 
Corporation, a major transporter of Bakken crude, said it 
regularly received oil from North Dakota with even more 
volatile pressure readings, sometimes up to 12 psi. Does that 
sound unusual to you at all?
    Mr. Auers. Twelve fits right in with what Bakken looked 
like. In our study it varied. And again, sometimes I get 
confused in talking about RVP and true vapor pressure and we 
use a true vapor pressure, which measures out about a pound 
higher than RVP does. But typically Bakken, from an RVP 
standpoint, will be 8 to 12 pounds from a true vapor pressure 
standpoint, 9 to 13 pounds. Again, it does vary seasonally a 
little bit. So 12 fits right in that range.
    Mr. Veasey. Is it--well, compared to other light sweet, 
was--would other light sweet be in that range as well?
    Mr. Auers. You know, as I mentioned in my testimony, some--
within two or three pounds of that, some higher, some lower. A 
lot of the conventional pipeline crudes like the LLS, the West 
Texas crude at Cushing, some of those will be generally a 
little bit lower, more in the five to eight range. Almost--most 
of the tight oils are going to be potentially higher, the Eagle 
Fords, the Niobraras, the Uticas. So it varies, but within 
those ranges I don't know that there are substantive 
differences. What again others are studying, you know, and it 
was mentioned earlier, I don't think anybody knows--certainly 
vapor pressure doesn't correlate directly with flammability or 
ignitability as per the ethanol example, but to what degree it 
contributes to the ignitability or flammability, that is being 
studied. And we didn't--we are not doing that study. That is 
being studied by other groups.
    Mr. Veasey. Well, what about--it said by comparison that 
the Louisiana light sweet from the Gulf of Mexico had vapor 
pressure readings of 3.33 psi according to Capline. So when you 
compare that 3.33 psi compared to what is coming out of the 
Bakken, how large of a difference is that? Because you are 
talking about those being light sweet there.
    Mr. Auers. LLS actually is one of the--and that is pure 
LLS. You know, right now, you know, Bakken is part of the LLS 
stream. When Bakken comes into St. James, it gets blended into 
LLS. So LLS actually--a typical LLS is probably about that 
level now. It is probably more than a 5 or 6 psi range.
    What is the difference between a three- or four-pound crude 
and a 10-pound crude as far as safety issues? I don't know 
that. I don't know the answer to that. People are studying 
that. I suspect that, again, in my example, ethanol has a vapor 
pressure of 2.3 psi, which is lower than LLS, but it is 
extremely flammable and ignitable. So it is a very--the 
ignitability and flammability question is extremely complex, 
and one reason why there haven't been any results, any 
conclusions from those studies to date is because there are a 
lot of factors that go in to it beyond just vapor pressure, 
beyond just light ends content, beyond just flashpoint or 
initial boiling point.
    Mr. Veasey. I mean with your knowledge of, you know, 
transportation and quality issues related to the Bakken, I mean 
what is safer from a public safety standpoint? Is it better to 
transport this stuff by rail or is it more safe to have it in a 
pipeline?
    Mr. Auers. I believe, you know, as I heard in earlier 
testimony and I am sure Kari say that as well, it all depends. 
You know, I think all those forms of transportation can be 
safe, including marine, which you didn't mention. We transport 
crude oil products by all forms of--all those forms of 
transportation--
    Mr. Veasey. You are transporting Bakken by marine around 
the United States?
    Mr. Auers. Bakken will be--you know, they are putting in 
rail terminals on the West Coast. The idea is to rail it to the 
West Coast and transport by marine down to California. Bakken, 
as I said, does make it to the Gulf coast and some of those 
barrels do get blended in to an LLS stream. That--the potential 
is to transport that by marine around to the East Coast. So I 
anticipate that Bakken will be moved by marine at some point. 
Again, the plans are if those terminals on the Columbia River 
get built, then there will be Bakken moved by marine. So all 
forms of transportation are safe if they are done correctly.
    Mr. Veasey. Thank you. Thank you, Mr. Chairman.
    Mr. Weber. Thank you.
    The Chair has a unanimous consent request. Our fellow 
member Jim Bridenstine from that North Texas community called 
Oklahoma isn't on the Committee but he would like to act as a 
member of the committee. Without objection, so ordered.
    Mr. Bridenstine. We are not North Texas. Texas is Baja, 
Oklahoma. Let's be clear.
    The California guy laughs.
    Ms. Cutting, would the hazardous material regulation cause 
you to treat Bakken crude any differently than crude from Eagle 
Ford in Texas or the DJ Basin in Colorado?
    Ms. Cutting. No.
    Mr. Bridenstine. So the regulations would not cause you to 
treat one differently from the other?
    Ms. Cutting. No. The regulations have a decision tree they 
must go through that initially you look at flashpoint in 
material and then you look at initial boiling point. And given 
that criteria that is used to determine packing group, all of 
those would be in either Packing Group 1 or Packing Group 2. 
And if I can take a moment to make a statement that part of the 
controversy that is going on as far as packing groups and some 
of what you have heard today is because the methodology--
prescribed methodology used today with wide boiling range 
materials cannot tell the difference between Packing Group 1 
and Packing Group 2. And that is really causing some of these 
issues. So I feel very safe in saying that all those materials 
would be Class 3 flammable liquids, Packing Group 1 or Packing 
Group 2. Further, Packing Group 1, Packing Group 2 designation 
does not change the railcar that is used to move the material 
and it does not change the emergency response.
    Mr. Bridenstine. Thank you for sharing that and clarifying.
    Mr. Auers, what are the most unique characteristics of 
Bakken petroleum and please explain to what extent those 
characteristics distinguish Bakken petroleum from other types.
    Mr. Auers. Again, I don't think Bakken is particularly 
unique in general, but there are some things that make a 
difference in some of the other titles. For one, it is very 
consistent across the whole basin. Most other titles tend to 
vary quite a bit. Eagle Ford crude, for example, varies from 
very gassy areas to natural gas liquid area to a very light 
condensate down to, you know, a heavier crude oil. So even in 
the liquid part of Eagle Ford basin can vary from 30 gravity 
crude to 60 gravity crude. Bakken falls in a very tight range, 
generally between 40 and 43 API gravity. So it is a very 
mother's milk crude to the refiners, very high yields of 
gasoline and diesel. Refiners love it. It fits really well into 
the East Coast refining systems, the way they are configured. 
It fits pretty well into the Pacific Northwest refining 
complexes as they are configured. And it is--you know, it is 
one of the examples of why, you know, that works that way. I 
mean it has been very easy for those refiners to back out 
waterborne light crudes. It fits very well and it is a 
replacement for those offshore international crudes.
    Mr. Bridenstine. Is it true that petroleum produced from 
the Bakken region has an average lower sulfur content than the 
average sulfur content processed by U.S. refiners on average?
    Mr. Auers. Oh, yeah, quite a bit lower. It is less than, 
oh, .28 percent sulfur. I think the average sulfur of U.S. 
refinery crude runs somewhere in the 1.6/7 range.
    Mr. Bridenstine. What are the consequences of petroleum 
with lower sulfur content?
    Mr. Auers. It requires less intensive processing at the 
refinery level to produce clean products, you know, low sulfur 
transportation fuels. That makes it less expensive to process.
    Mr. Bridenstine. So this would be a more marketable, you 
know, crude than other crudes?
    Mr. Auers. It is a more valuable crude. The sulfur is not 
the biggest part of its value; it is the fact that it has very 
good distillation characteristics, again, a high yield of 
gasoline components and distillate diesel components, high-
value transportation fuels.
    Mr. Bridenstine. Is it true that increased Bakken 
production has led to the continued operations of certain East 
Coast refineries?
    Mr. Auers. Yeah, I believe that is very true. Just 2 or 
three years ago there were several refineries that were 
threatened with shutdown. Before that time two or three--really 
four or five actually did shutdown. Once they were able to gain 
access to lower-cost domestic supply to be able to replace the 
high cost international barrels they were running, we were able 
to keep the Philadelphia Energy Systems plant, a big 330,000 
barrel-a-day plant in Philadelphia operating. The Phillips 66, 
Conoco Phillips, was looking at shutting down their Marcus Hook 
plant south of--you know, close to the Philadelphia airport. 
Delta Airlines--that is a Monroe Energy subsidiary--bought that 
plant and it is operating. The Delaware City plant has--that 
was shut down for a while has started up. So we--and I think 
continued access to that crude is crucial to keep the East 
Coast refineries running.
    Mr. Bridenstine. Thank you for sharing that. I am out of 
time. I just want to say it is true that what is happening in 
the Bakken is good for our country, and thank you guys for 
being here.
    Mr. Weber. The gentleman yields back.
    Mr. Rohrabacher, did you have a question?
    Mr. Rohrabacher. Thank you very much. I guess we are going 
for votes so I will round things off.
    I mentioned earlier to the first panel that there are 
dangers with offshore oil drilling, and I have visited offshore 
oil platforms. I am a surfer and a scuba diver. And--but there 
are people who lose their lives in building these things and 
also we have had fire flame outs and flares and oil spills and 
things in the Gulf of Mexico, et cetera.
    We have had the of course Alaskan and Arctic oil 
production, which again is very expensive and many people 
probably over that time period of driving supplies and things 
lost their lives in making sure we had the production from the 
pipeline in Alaska.
    And let's just note, by the way, we should all consider 
what our economy would have like in the last 20 years had we 
not thought through the Alaskan pipeline because the Alaskan 
pipeline only won by one vote in the United States Congress. 
And had we not had to that oil, what would our economy have 
been like during these last 30 years when the dependency on 
Gulf oil--meaning Persian Gulf oil--was sucking the life out of 
our system? You know, in coalmining there are people who die in 
coalmining and transporting coalmines, and of course in nuclear 
power we have got a waste left over that is there for 1,000 
years.
    So maybe, it seems to me when you have all these other 
resources for energy and that is what you are facing, we should 
be thanking God that we found oil and gas in North Dakota of 
all places.
    And let me--I mean that was--and I am saying that as my 
father, mother were both from small farms in North Dakota and 
life was so tough in North Dakota on these small farms that my 
dad left the farm in order to fight in the Marine Corps to 
fight World War II. And life was so rough that the life of a 
Marine fighting World War II was actually more comfortable than 
the life on the farm and so he stayed in the Marine Corps.
    And I--when I look and see how people in North Dakota are 
living now and what this means to people--ordinary people's 
lives, again, you should be thanking God rather than sending 
out an army of regulators to try to find--and using a 
microscope to find out any excuse to put a roadblock in the way 
and try to stop this wonderful gift that we have from being 
utilized to upgrading people's lives in our country. So that is 
the number one point.
    Let me ask you about--and again, I think the motive that 
this Administration--that is why you are getting these type of 
very skeptical questions of the first panel is we can see that 
this Administration honestly believes in the global warming 
theory, and thus it really wants to stamp out the use of fossil 
fuels, and that would mean--and that is why we have the excuse 
of no pipeline, the Keystone pipeline, after all of this time 
not being approved. We are paying the price. We are paying the 
price for that and ordinary people in this country, like the 
people in North Dakota in particular, but ordinary people who 
live in this country are going to pay a price for not having 
this wealth that God gave us as a gift. And of course with our 
intelligence and the new fracking system--let me ask one 
question about your production there.
    One thing--I have watched this develop in North Dakota 
because I have these family ties, gee, I sure hope there is 
some under my grandpa's old land but we haven't determined that 
yet so let me ask you this about flaring, which is one thing 
that I have been concerned about is that when you see these 
pictures at night, you see that there is enormous amounts of 
flaring going on in North Dakota. Now, flaring is a waste of 
resources. Flaring is a waste of natural gas and you are 
putting stuff into the air that you don't necessarily want to 
put in the air. I understand that North Dakota now is going out 
of its way to try to bring the flaring of natural gas in the 
Bakken under control. Is that right?
    Ms. Cutting. That is correct. The North Dakota Petroleum 
Council stood up a task force to look at this flaring issue and 
the industry itself identified the roadblocks to bringing 
infrastructure into place to capture that gas and a lot of 
that--the roadblocks had to do with landowner rights and 
easement. The fact that there needed to be better communication 
with companies who are building pipeline, this turned out to be 
a major roadblock. So through the effort of that task force and 
with working with the North Dakota Industrial Commission it was 
determined that one of the ways to better capture gas as 
quickly as possible was to have a gas capture plan required at 
the time of permitting, and that is now occurring.
    Mr. Rohrabacher. We are blessed with a great gift of oil 
and gas in North Dakota and I hope that we are able to get the 
flaring under control because that does reflect a waste of 
wealth and also something that could be harmful to people's 
health.
    So with that said, thank you very much. This has been a 
very, I think, significant hearing.
    Mr. Weber. The gentleman yields back.
    I will say, Dana--you know, he is being a little modest. He 
told me that his parents grew up on a farm that was so poor it 
took three acres just to rust one nail, so that is pretty poor. 
So perhaps they will find oil underneath your grandpa's old 
farm.
    So with this, this hearing is concluded. Thank you for your 
testimony.
    [Whereupon, at 4:37 p.m., the Subcommittees were 
adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[SKIP PAGES = 000]

                   Answers to Post-Hearing Questions
Responses by Mr. Chris Smith
[GRAPHICS IS NOT AVAILABLE IN TIFF FORMAT] 

Responses by Mr. Timothy Butters

[GRAPHICS NOT AVAIALBE TIFF FORMAT] 

Responses by Ms. Kari Cutting

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                              Appendix II

                              ----------                              


                   Additional Material for the Record


[SKIP PAGES = 000]

          Prepared Statement of Full Committeee Ranking Member
                         Eddie Bernice Johnson
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                 [all>]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
